<html>
<title> - RAISING THE BAR: THE ROLE OF CHARTER SCHOOLS IN K-12 EDUCATION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


                      RAISING THE BAR: THE ROLE OF
                   CHARTER SCHOOLS IN K	12 EDUCATION

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, MARCH 12, 2014

                               __________

                           Serial No. 113-49

                               __________

  Printed for the use of the Committee on Education and the Workforce
  
  
  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  


      Available via the World Wide Web: www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
            
         
                               ____________
                
                
                       U.S. GOVERNMENT PUBLISHING OFFICE
86-827 PDF                    WASHINGTON : 2016                       
                
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0f687f604f6c7a7c7b676a637f216c606221">[email&#160;protected]</a>  
               
                
                
                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Robert C. ``Bobby'' Scott, 
Joe Wilson, South Carolina               Virginia
Virginia Foxx, North Carolina        Ruben Hinojosa, Texas
Tom Price, Georgia                   Carolyn McCarthy, New York
Kenny Marchant, Texas                John F. Tierney, Massachusetts
Duncan Hunter, California            Rush Holt, New Jersey
David P. Roe, Tennessee              Susan A. Davis, California
Glenn Thompson, Pennsylvania         Raul M. Grijalva, Arizona
Tim Walberg, Michigan                Timothy H. Bishop, New York
Matt Salmon, Arizona                 David Loebsack, Iowa
Brett Guthrie, Kentucky              Joe Courtney, Connecticut
Scott DesJarlais, Tennessee          Marcia L. Fudge, Ohio
Todd Rokita, Indiana                 Jared Polis, Colorado
Larry Bucshon, Indiana               Gregorio Kilili Camacho Sablan,
Trey Gowdy, South Carolina             Northern Mariana Islands
Lou Barletta, Pennsylvania           Frederica S. Wilson, Florida
Joseph J. Heck, Nevada               Suzanne Bonamici, Oregon
Susan W. Brooks, Indiana             Mark Pocan, Wisconsin
Richard Hudson, North Carolina
Luke Messer, Indiana

                    Juliane Sullivan, Staff Director
                 Jody Calemine, Minority Staff Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 12, 2014...................................     1

Statement of Members:
    Kline, Hon. John, Chairman, Committee on Education and the 
      Workforce..................................................     1
        Prepared statement of....................................     3
    Miller, Hon. George, senior Democratic member, Committee on 
      Education and the Workforce................................     3
        Prepared statement of....................................     5

Statement of Witnesses:
    Graham Keegan, Lisa, Partner, Chair of the Board, National 
      Association of Charter Schools Authorizers, Peoria, AZ.....    17
        Prepared statement of....................................    19
    Linzey, David, Executive Director, Clayton Valley Charter 
      High School, Concord, CA...................................    25
        Prepared statement of....................................    27
    McGriff, Deborah, Chair of the Board, National Alliance for 
      Public Charter Schools, Milwaukee, WI......................     7
        Prepared statement of....................................     9
    Rosskamm, Alan, Chief Executive Officer, Breakthrough 
      Schools, Cleveland, OH.....................................    40
        Prepared statement of....................................    42
    Whitehead-Bust, Alyssa, Chief of Innovation and Reform, 
      Denver Public Schools, Denver, CO..........................    31
        Prepared statement of....................................    33

Additional Submissions:
    Chairman Kline, questions submitted for the record to:.......
        Mrs. Keegan..............................................    76
        Mr. Linzey...............................................    83
        Dr. McGriff..............................................    87
        Mr. Rosskamm.............................................    93
        Ms. Whitehead-Bust.......................................    97
    Holt, Hon. Rush, a Representative in Congress from the State 
      of New Jersey, questions submitted for the record to:......
        Mrs. Keegan..............................................    76
        Mr. Linzey...............................................    83
        Dr. McGriff..............................................    87
        Mr. Rosskamm.............................................    93
        Ms. Whitehead-Bust.......................................    97
    Hudson, Hon. Richard, a Representative in Congress from the 
      State of North Carolina, questions submitted for the record 
      to:........................................................
        Mr. Rosskamm.............................................    93
    Response to questions submitted:.............................
        Mrs. Keegan..............................................    77
        Mr. Linzey...............................................    84
        Dr. McGriff..............................................    88
        Mr. Rosskamm.............................................    94
        Ms. Whitehead-Bust.......................................    98
    Messer, Hon. Luke, a Representative in Congress from the 
      State of Indiana...........................................
    Prepared statement of........................................    67
    Hinojosa, Hon. Ruben, a Representative in Congress from the 
      State of Texas.............................................
        Prepared statement of....................................    46

 
                  RAISING THE BAR: THE ROLE OF CHARTER
                       SCHOOLS IN K-12 EDUCATION

                                ----------                              


                       Wednesday, March 12, 2014

                     U.S. House of Representatives,

               Committee on Education and the Workforce,

                            Washington, D.C.

                                ----------                              

    The committee met, pursuant to call, at 10:38 a.m., in Room 
2175, Rayburn House Office Building, Hon. John Kline [chairman 
of the committee] presiding.
    Present: Representatives Kline, Foxx, Roe, Thompson, 
Walberg, Salmon, Guthrie, DesJarlais, Rokita, Bucshon, Heck, 
Brooks, Hudson, Messer, Miller, Scott, Hinojosa, Tierney, Holt, 
Davis, Grijalva, Bishop, Fudge, Polis, and Pocan.
    Staff present: Janelle Belland, Coalitions and Members 
Services Coordinator; James Bergeron, Director of Education and 
Human Services Policy; Nancy Locke, Chief Clerk; Daniel Murner, 
Press Assistant; Krisann Pearce, General Counsel; Mandy 
Schaumburg, Senior Education Counsel; Dan Shorts, Legislative 
Assistant; Alex Sollberger, Communications Director; Alissa 
Strawcutter, Deputy Clerk; Juliane Sullivan, Staff Director; 
Brad Thomas, Senior Education Policy Advisor; Tylease Alli, 
Minority Clerk/Intern and Fellow Coordinator; Kelly Broughan, 
Minority Education Policy Associate; Jacque Chevalier, Minority 
Education Policy Advisor; Jamie Fasteau, Minority Director of 
Education Policy; Scott Groginsky, Minority Education Policy 
Advisor; Brian Levin, Minority Deputy Press Secretary/New Media 
Coordinator; and Megan O'Reilly, Minority General Counsel.
    Chairman Kline. A quorum being present, the committee will 
come to order.
    Well, good morning. Thank you to our witnesses for joining 
us today to discuss how successful charter schools can 
strengthen our nation's education system. We appreciate your 
flexibility, given our need to reschedule the hearing due to 
last week's snowstorm. And for once, it wasn't just a single 
snowflake that shut this down, so we appreciate that very much.
    The charter school model began in 1991 in my home state of 
Minnesota. We passed legislation to create the nation's first 
charter schools. In the years that have followed, more than 
6,000 charter schools have opened in 42 states and the District 
of Columbia, serving almost 2.5 million children each year.
    As you know, charter schools are public schools that 
operate under a contract, or charter, negotiated with the local 
school board or other authorizer. The charter school agrees to 
meet certain student achievement goals and metrics, and in 
exchange, the institution will be exempt from certain state 
laws and regulations. This enhanced flexibility encourages 
charter schools to pioneer new programs and teaching methods 
that are meeting the unique needs and students and getting real 
results.
    In Indianapolis, for example, the Charles A. Tindley 
Accelerated School expects every student--no matter his or her 
background or circumstance--to have a college acceptance letter 
upon graduation. The school's rigorous curriculum and laser 
focus on preparing students for higher education has helped 
more than 80 percent of its alumni earn a bachelor's degree.
    Yes Prep Public Schools in Memphis and Houston also have an 
impressive record of success. The schools, which primarily 
serve low-income families, offer SAT prep courses and classes 
that help students learn the financial aid system and practice 
writing college application essays. And the hard work pays off: 
For 15 years in a row, every Yes Prep graduate has been 
accepted into college.
    For many children and their parents, charter schools are a 
beacon of hope for a better education and a better life. The 
schools are extraordinarily in demand. Wait lists for charter 
schools have grown steadily in recent years, reaching a new 
record of 920,000 students in 2012.
    As we work to help more students access a quality 
education, we must support charter schools as a valuable 
alternative to failing public schools and work together to 
encourage their growth. Expanding choice and opportunity 
remains a key pillar in the committee's education reform 
efforts.
    Last Congress, we advanced the Empowering Parents Through 
Quality Charter Schools Act. The legislation, which passed the 
House with bipartisan support, would reauthorize the charter 
school program and allow successful charter schools to be 
replicated across the country.
    Similar language to support charter schools was included in 
last year's Student Success Act, our legislation to reauthorize 
the Elementary and Secondary Education Act and revamp the 
nation's education system. However, the Student Success Act has 
been awaiting Senate consideration for more than 6 months. Each 
day without Senate action is another day thousands of students 
remain trapped in underperforming schools.
    We cannot make these families wait any longer for the 
education their children need and deserve. If the Senate 
refuses to bring education reform legislation up for a vote, 
then the House will explore opportunities to advance targeted 
legislation to encourage charter school growth.
    Recent news highlights the challenges the charter school 
model faces and underscores the importance of reauthorizing and 
strengthening the charter school program to help ensure these 
institutions can continue raising student achievement levels 
nationwide.
    I look forward to discussing with my colleagues and our 
excellent panel of witnesses ways the House Education and the 
Workforce Committee can help strengthen the charter school 
model and support the expansion and growth of these innovative 
institutions.
    I now recognize my distinguished colleague, Mr. Miller, for 
his opening remarks.
    [The statement of Chairman Kline follows:]

Prepared Statement of Hon. John Kline, Chairman, Committee on Education 
                           and the Workforce

    The charter school model began in 1991 when my home state of 
Minnesota passed legislation to create the nation's first charter 
schools. In the years that have followed, more than 6,000 charter 
schools have opened in 42 states and the District of Columbia, serving 
approximately 2.5 million children each year.
    As you know, charter schools are public schools that operate under 
a contract, or charter, negotiated with the local school board or other 
authorizer. The charter school agrees to meet certain student 
achievement goals and metrics, and in exchange, the institution will be 
exempt from certain state laws and regulations. This enhanced 
flexibility encourages charter schools to pioneer new programs and 
teaching methods that are meeting the unique needs of students and 
getting real results.
    In Indianapolis, for example, the Charles A. Tindley Accelerated 
School expects every student - no matter his or her background or 
circumstance - to have a college acceptance letter upon graduation. The 
school's rigorous curriculum and laser-focus on preparing students for 
higher education has helped more than 80 percent of its alumni earn a 
bachelor's degree.
    Yes Prep Public Schools in Memphis and Houston also have an 
impressive record of success. The schools, which primarily serve low-
income families, offer SAT prep courses and classes that help students 
learn the financial aid system and practice writing college application 
essays. And the hard work pays off: for fifteen years in a row, every 
Yes Prep graduate has been accepted into college.
    For many children and their parents, charter schools are a beacon 
of hope for a better education - and a better life. The schools are 
extraordinarily in demand; wait lists for charter schools have grown 
steadily in recent years, reaching a new record of 920,000 students in 
2012.
    As we work to help more students access a quality education, we 
must support charter schools as a valuable alternative to failing 
public schools, and work together to encourage their growth. Expanding 
choice and opportunity remains a key pillar in the committee's 
education reform efforts.
    Last Congress, we advanced the Empowering Parents through Quality 
Charter Schools Act. The legislation, which passed the House with 
bipartisan support, would reauthorize the Charter School Program and 
allow successful charter school models to be replicated across the 
country.
    Similar language to support charter schools was included in last 
year's Student Success Act, our legislation to reauthorize the 
Elementary and Secondary Education Act and revamp the nation's 
education system. However, theStudent Success Act has been awaiting 
Senate consideration for more than six months. Each day without Senate 
action is another day thousands of students remain trapped in 
underperforming schools.
    We cannot make these families wait any longer for the education 
their children need and deserve. If the Senate refuses to bring 
education reform legislation up for a vote, then the House will explore 
opportunities to advance targeted legislation to encourage charter 
school growth.
    Recent news highlights the challenges the charter school model 
faces, and underscores the importance of reauthorizing and 
strengthening the Charter School Program to help ensure these 
institutions can continue raising student achievement levels 
nationwide.
    I look forward to discussing with my colleagues and our excellent 
panel of witnesses ways the House Education and the Workforce Committee 
can help strengthen the charter school model and support the expansion 
and growth of these innovative institutions.
                                 ______
                                 
    Mr. Miller. Thank you very much, Mr. Chairman, and thank 
you for holding this hearing and agreeing to re-establish the 
hearing after it was originally canceled.
    I want to thank our distinguished panel for their 
participation in today's hearing, and I look forward to your 
testimony. I am also eager to hear about the great work being 
done to improve our nation's education system. I am looking 
forward to today's discussion about how charter schools are 
benefiting students, parents and communities.
    I especially want to thank Mr. David Linzey, the executive 
director of Clayton Valley High School in Concord, California, 
who is with us today. The story of Clayton Valley's 
transformation in just 1 year is truly inspirational testament 
to the role charter schools can play in the K-12 system.
    I have seen this transformation firsthand, and let me tell 
you that Clayton Valley is a bright light in the 11th District. 
Students and parents are engaged. Teachers are supported. 
Student achievement is up, and the community is reaping the 
benefits. Mr. Linzey, thank you for traveling all this way 
today to tell the story of Clayton Valley's success.
    This school year, more than 2.5 million of our nation's 
students are attending nearly 6,400 public charter schools. In 
many ways, charter schools have been teaching us what is 
possible when it comes to educating kids, and their work helps 
break down many of the stereotypes that have all-too-often 
plagued kids who happen to be from the wrong ZIP Code.
    What started as a small movement just over 20 years ago has 
grown at breakneck speed. Now some school districts are 
enrolling significant percentages of their overall student 
population at public charter schools, but I worry that rapid 
growth will come at a cost of quality and accountability. 
Charters are given public dollars and flexibility in exchange 
for the promise to educate the students and, in many cases, 
turn around low-performing schools. However, when a charter 
school falls short of that promise, we owe it to the students, 
the families, and the teachers to hold the school responsible 
for improvement and close that school, if necessary, if they 
can't meet those goals.
    Like other public schools, it is vital that charter schools 
are held to a high standard of accountability. Every school in 
every neighborhood needs to be serving students and parents, 
delivering on the promise of quality education, and all schools 
need to equitably serve all students.
    As I have said before, and I will say it again, no kid 
should be trapped in a failing school, charter or non-charter. 
We must treat all public schools as part of the solution. And 
yet all too often, we refer to charter schools as ``those other 
schools'' and treat these innovations in public education as if 
they were on a separate parallel track to school districts and 
non-charter public schools. Instead, we must embrace charter 
schools as part of our current education system and work to 
ensure that the autonomy and flexibility that charter schools 
receive is used to the benefit of all students.
    We have seen success borne out of meaningful collaboration 
with districts and communities in places like Denver, where 
charter schools aren't often the side, but embraced as a driver 
of the whole district improvement. This kind of collaboration 
has fostered the transfer of best practices, many of which 
started as charter school innovations, but are now being 
applied in the public schools more broadly to enhance the 
services for underserved students, including students with 
disabilities.
    The district work in Denver is precisely what should be 
happening to benefit all kids, and we need to see more of this 
across the country. I look forward to hearing about Denver's 
successes from another one of the witnesses today, and I 
believe that it is a moral imperative to do better by our 
students and families. Higher standards and better assessments 
will help, but we must look at the innovative reforms, like 
charter schools, to push the envelope and spur the system to 
change when they seem to be stuck.
    And I want to thank the chairman again for calling this 
hearing and, again, thank you to the witnesses, and we look 
forward to your testimony.
    [The statement of Mr. Miller follows:]

  Prepared Statement of Hon. George Miller, Senior Democratic Member, 
                Committee on Education and the Workforce

    Thank you, Mr. Chairman.
    I also want to thank our distinguished witness panel for their 
participation in today's hearing.
    I am always eager to hear about the great work being done to 
improve our nation's education system, and I am looking forward to 
today's discussion about how charter schools are benefiting students, 
parents, and communities.
    I especially want to thank Mr. David Linzey, the executive director 
of Clayton Valley High School in Concord, California, who is with us 
today.
    The story of Clayton Valley's transformation--in just one year--is 
a truly inspirational testament to the role charter schools can play 
within our K-12 system.
    I have seen this transformation first hand, and let me tell you 
that Clayton Valley is a bright light in the 11th district. Students 
and parents are engaged, teachers are supported, student achievement is 
up, and the community is reaping the benefits.
    Mr. Linzey, thank you for traveling here today to tell this story.
    This school year, more than 2.5 million of our nation's students 
are attending nearly 6,400 public charter schools.
    In many ways, charter schools have been teaching us what IS 
possible when it comes to educating kids--and their work helps break 
down many of the stereotypes that all too often plague kids who happen 
to be from the wrong zip code.
    What started as a small movement just over 20 years ago has grown 
at break-neck speed. Now, some school districts are enrolling 
significant percentages of their overall student population at public 
charter schools.
    But I worry that rapid growth has come at the cost of quality and 
accountability.
    Charters are given public dollars and flexibility in exchange for a 
promise to educate students and, in many cases, turn around low-
performing schools.
    However, when a charter school falls short of that promise, we owe 
it to the students, families, and teachers to hold the school 
responsible for improvement--and close it if necessary.
    Like other public schools, it's vital that charter schools are held 
to a high standard of
    accountability. Every school in every neighborhood needs to be 
serving students and parents and delivering on the promise of quality 
education. And all schools need to equitably serve all students.
    I've said it before, and I will say it again: no kid should be 
trapped in a failing school--charter or noncharter. We must treat all 
public schools as part of the solution.
    Yet all too often we refer to charter schools as ``those other 
schools'' and treat this innovation in public education as if it were 
on a separate, parallel track to school districts and non-charter 
public schools.
    Instead, we must embrace charter schools as part of our current 
education system and work to ensure that the autonomy and flexibility 
that charter schools receive is used to benefit all students.
    We've seen success born out of meaningful collaboration with 
districts and communities in places like Denver, where charter schools 
aren't off to the side, but embraced as a driver of whole-district 
improvement.
    This kind of collaboration has fostered the transfer of best 
practices, many of which started as charter school innovations, but are 
now being applied to public schools more broadly to enhance services 
for underserved students, including students with disabilities.
    The district work in Denver is precisely what should be happening 
to benefit all kids, and we need to see more of this across the 
country. I look forward to hearing about Denver's successes from 
another one of the witnesses here today.
    I believe there is a moral imperative to do better by our students 
and families. Higher standards and better assessments will help, but we 
must look to innovative reforms, like charter schools, to push the 
envelope and spur systems to change when they seem to be stuck.
    I want to thank the chairman for calling today's hearing, and I 
look forward to the discussion.
                                 ______
                                 
    Chairman Kline. Thank you.
    Pursuant to Committee Rule 7(c), all committee members will 
be permitted to submit written statements to be included in the 
permanent hearing record. And without objection, the hearing 
record will remain open for 14 days to allow statements, 
questions for the record, and other extraneous material 
referenced during the hearing to be submitted in the official 
hearing record.
    It is now my pleasure to introduce our very distinguished 
panel of witnesses. Dr. Deborah McGriff is the chair of the 
board for the National Alliance for Public Charter Schools. She 
also serves as a partner with New Schools Venture Fund. 
Previously, she has served as the first female superintendent 
of Detroit Public Schools.
    Mrs. Lisa Graham Keegan is the chair of the board for the 
National Association of Charter School Authorizers. She also 
serves as the founder and president of the Education and 
Breakthrough Network. Previously, she has served as Arizona's 
superintendent of public instruction.
    And I think, Mr. Miller, did you want to introduce our--
    Mr. Miller. Yes, thank you, Mr. Chairman. And I am honored 
to introduce Mr. David Linzey, the executive director of the 
Clayton Valley Charter High School in Concord, California. Mr. 
Linzey was unanimously appointed to serve as executive director 
of the charter high school's governing board following the 
school's 2012 conversion to a public charter school. Prior to 
leading Clayton Valley, he spent time as a teacher, principal, 
and a district superintendent, as well as chief academic 
officer for the Alliance of College-Ready Public Schools, a 
high-performing charter school network in Los Angeles. While 
with the alliance, he led the urban charter schools to achieve 
record-breaking college acceptance rates of more than 90 
percent.
    His track record of student-centered and result-driven 
instruction has followed him to Clayton Valley, where just in 1 
year since the charter conversion, the school has achieved the 
largest increase in student academic growth of any high school 
in the state. I want to personally thank Mr. Linzey for his 
leadership to Clayton Valley. Your vision, your hard work, your 
dedication, and your dedicated faculty have truly ushered in a 
new era for this high school and for its community of students, 
families and faculty. And I know the process of conversion was 
arduous at some point there, a little combative, but the 
results are indisputable. And I am pleased that you will be 
able to be with us today, David. Thank you so much for making 
the trip.
    Chairman Kline. The pressure is on. You got that. Okay.
    [Laughter.]
    We also have Ms. Alyssa Whitehead-Bust. She serves as the 
chief of innovation and reform at Denver Public Schools. She is 
also an instructor in the University of Denver's Education 
Leadership for Successful Schools Principal Preparation 
Program. That is more alliteration than I can handle there.
    Mr. Alan Rosskamm is the chief executive officer of 
Breakthrough Schools in Cleveland, Ohio. He also serves at the 
chair of the Parent Engagement Committee on the City of 
Cleveland's Transformation Alliance.
    So, welcome to you all. Before I recognize each of you to 
provide your testimony, let me briefly explain, again--I know 
it has been pointed out--our lighting system. When you start 
your testimony, 5 minutes will be allotted. You will have a 
green light in front of you. When there is a minute left, the 
yellow light will come on. And when you have reached the end of 
your 5 minutes, the red light will come on, and I would ask you 
to try to wrap up as expeditiously then as you can.
    After all of you have finished your testimony, then we will 
be recognized for 5 minutes each to ask questions. While I am 
loathe to gavel down the witnesses during their testimony, I am 
much less so with my colleagues. So we want to try to keep 
moving, give everybody have a chance to be involved in the 
discussion.
    I now would like to recognize Dr. McGriff for 5 minutes.

STATEMENT OF DR. DEBORAH MCGRIFF, CHAIR OF THE BOARD, NATIONAL 
       ALLIANCE FOR PUBLIC CHARTER SCHOOLS, MILWAUKEE, WI

    Ms. McGriff. Mr. Chairman and members of the committee, 
thank you for the opportunity to appear before you today on 
behalf of the National Alliance for Public Charter Schools. I 
currently serve as the board chair of the National Alliance, 
and I am also a managing director at New Schools Venture Fund, 
a nonprofit organization that supports entrepreneurs who are 
transforming public education.
    I came to New Schools after a long career as an urban 
school teacher, district administrator, superintendent, and 
national charter schools leader. Throughout my career, I have 
been committed to choice, excellence and equity. Today I want 
to highlight the growth and impact of charter schools and the 
importance of the federal charter schools program to the growth 
and success of our nation's public charter schools.
    Let's start with growth and impact. This school year, there 
are more than 6,400 public charter schools enrolling 2.5 
million students. This is amazing growth, as the movement 
began, as our chairman informed us, in 1991 with the passage of 
the first charter legislation in the state of Minnesota and 
with the opening of the first charter school the following 
year.
    Today, 42 states and the District of Columbia have now 
passed charter school laws, and in 135 communities, more than 
10 percent of the students attend public charter schools. And 
in seven school districts, the charter school students exceed 
30 percent of the public school population.
    As you know, Congress first created the charter schools 
program in 1994, and research shows that investment has paid 
off. Today, 15 of 16 gold standard research studies conducted 
on public charter school student performance since 2010 have 
found that public charter schools are exceeding in their 
mission.
    Most important, charter schools are helping students who 
need it most. A 2013 study conducted by Stanford University's 
Center for Research on Education Outcomes on public charter 
school performance looked at public charter school performance 
in 27 states and found that charter school students are 
outperforming their peers in reading in traditional public 
schools and they are closing the achievement gap among 
subgroups.
    Charter schools are seeing success in closing the 
achievement gap, while at the same time the percentage of 
public charter school students of color and from low-income 
families is much higher than the percent in traditional public 
schools.
    While public charter schools have been at the forefront of 
serving disadvantaged populations since the movement began, the 
National Alliance has worked to continuously improve these 
efforts. The National Alliance recently issued guidance to the 
charter school community on their legal obligations to serve 
English-language learners and provided a toolkit to guide those 
efforts.
    In addition, we at the alliance partnered with the newly 
formed National Center for Special Education in Charter Schools 
last October to issue a report on how states can provide 
support to charter schools and how charter authorizers in 
meeting their legal responsibilities to strengthen the 
recruitment and services for children with disabilities.
    Now to talk a little about the charter school program. The 
charter school program through the State Education Agency 
Grants Program provides the start-up capital needed to design a 
school, hire a leader, recruit students, staff, and make 
initial purchases of materials and equipment until regular 
state and local funding becomes available.
    Beginning in the fiscal year 2010, Congress continued its 
work, seeding quality charter school networks by enabling high-
performing public charter schools to receive funding under the 
CSP grants for the replication and expansion of high-quality 
schools.
    The other major piece of the CSP program is support for 
facilities funding. Public charter schools most often devote 
scarce resources to securing space for their schools. The 
credit enhancement for charter schools program and the state's 
facilities incentive grants help redress the fiscal imbalance 
and ensure that our public charter schools have the facilities 
they need.
    As the Congress continues to work on reauthorization of the 
Elementary and Secondary Education Act, the number-one message 
that I want to leave with you today is that the CSP program is 
working and that both Congress and the administration should 
prioritize funding for the program to help us meet the needs 
and demands of parents and ensure funding equity for students 
who attend public charter schools.
    Thank you for the opportunity to provide testimony on the 
growth and impact of charter schools in American public 
education. I am happy to answer any questions that you might 
have.
    [The statement of Dr. McGriff follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Kline. Thank you.
    Mrs. Keegan, you are recognized for 5 minutes.

   STATEMENT OF MRS. LISA GRAHAM KEEGAN, CHAIR OF THE BOARD, 
NATIONAL ASSOCIATION OF CHARTER SCHOOLS AUTHORIZERS, PEORIA, AZ

    Mrs. Keegan. Thank you, Mr. Chairman, Ranking Member 
Miller, and committee members. I appreciate being here today, 
and specifically to talk about charter school authorizers, the 
boards that put charter schools into business, and particularly 
those members of NACSA. I serve as the chairwoman of the 
National Alliance for Charter School--or the National 
Association--sorry, Deborah--for Charter School Authorizers, 
NACSA. We represent boards who are overseeing more than half of 
the nation's public charter schools.
    I had the opportunity in Arizona to help write the charter 
school law in 1994, and I followed that as the state school 
superintendent into implementation, beginning in 1995. It is 
awfully nice to be 20 years down the road and know a lot more 
about what the work of authorizing public charter schools is.
    And the reason that we know that is because, at the same 
time we started public charter schools in this country, we got 
a much better look at data. We started to collect student data. 
And I have to thank the members of this committee for their 
dedication to this data over time.
    Twenty years ago, we didn't have this data when we started 
public charter schools. Today, we do. We also, though, when we 
started public charter schools, we initiated the first public 
schools created specifically to advance achievement. That was 
the goal.
    In charter schools, we see schools that are intentional. 
They are designed with a mission that is created by teachers, 
educators, who have a vision for a need that is seen and not 
met. It is a difference, it is a shift in the way we open a 
public school. It is an important shift, and we have seen 
thousands of leaders come to the fore to offer their mission.
    In addition, we have seen authorizing boards have to learn 
how to understand whether the people who sit in front of them 
are capable of delivering on that promise that they are so 
committed to. That has required a great deal of attention to 
the data that we have and the consistency of practice over 
time.
    At NACSA, I am particularly proud to be part of our effort 
called One Million Lives. The One Million Lives effort 
encourages charter-authorizing boards around the nation to use 
what we know about what excellence looks like and to only 
approve those applications, those dreams that have a good 
likelihood of resulting in a school that is worthy of the 
students in it.
    In addition, we ask our charter authorizers to take the 
difficult step of closing those schools, as Mr. Miller was 
discussing, that have not fulfilled their promise. It is a 
difficult task. It is an essential task. Over 5 years, we 
believe we will affect at least a million lives in this way for 
the better and have students in excellent schools.
    After the first year, I can tell you it looks like good 
progress. Last year, we saw 450 public charter schools open. 
That is not all of the public charter schools that open, but 
that is a number that we know were started by charter boards 
with the commitment to high-quality standards. At the same 
time, 206 public charter schools closed last year.
    Now, that opening number is high, seems high, 450. It 
actually could be a lot higher. As the chairman has indicated, 
we have got close to a million students sitting on wait lists. 
The closure number is high. It is going to stay high for a few 
years. This country has opened a number of schools because we 
didn't know. Those schools will have to close. That number will 
stay high for a few years. We suspect it will then come down--
we hope it will--and that we will get in the business of only 
starting excellence. But we probably will continue to have some 
failure as innovation is essential in this field.
    So this is great progress in charter authorizing. It is 
also progress just generally in public education. What does a 
great school look like at opening? What does a great school 
look like in operation? When do you have to intervene as a 
board?
    Hopefully we are fast approaching the day when any public 
charter school will be an intentional school and one that is 
only opened because the mission of that school is well 
understood and the leadership that is going to be at the helm 
has a proven record of success before they even begin this new 
school.
    So we have learned a lot. We know a lot. But it is not yet 
time to codify this moment, because as our friend and mentor 
Geoff Canada reminds us, our work is not close to being done, 
and we have to push so hard on innovation that there will 
continue to be failures, new trials, new attempts. We have to 
allow that to happen. And the critical balance for charter 
authorizers and for any school board is to use the best of what 
we know today and to be open to what is possible tomorrow.
    At NACSA, we are very humble to be doing that work with 
leaders around the country. And I want to thank you, Mr. 
Chairman and Mr. Miller, for your ongoing support for charter 
authorizing at quality, and to thank the rest of the members 
for your work, and I am happy to answer any questions.
    [The statement of Mrs. Keegan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
           
    Chairman Kline. Thank you. Mr. Linzey, you are recognized 
for 5 minutes.

  STATEMENT OF MR. DAVID LINZEY, EXECUTIVE DIRECTOR, CLAYTON 
   VALLEY CHARTER HIGH SCHOOL, CONCORD, CA (DEMOCRAT WITNESS)

    Mr. Linzey. Chairman Kline, Congressman Miller, and members 
of the committee, thank you for inviting me here today to tell 
the transformative story of Clayton Valley Charter High School, 
a secondary school in Concord, California.
    Charter schools allow for the critical autonomy in 
decision-making, compared to the bureaucracy and red tape of 
the local districts. In traditional schools and districts, it 
often takes years to make important changes, with obstacles met 
almost at every turn. This is different for charter schools, as 
we have the capacity to make school-based decisions regarding 
curriculum, supports, interventions, and more, in a timely 
manner.
    A charter school is a speedboat in contrast to the Titanic 
of the district decision-making. Those in the trenches 
typically understand what changes need to occur to meet the 
needs of students as opposed to those who are farther removed. 
Charter schools allow opportunity for improvement, innovation, 
and site-based decision-making.
    Clayton Valley has undergone a remarkable transformation 
since converting to a charter school in July 2012. After years 
of frustration and neglect by the local district, the teachers' 
turmoil reached a boiling point. This led to a vote by the 
teachers to convert the school from traditional to a charter 
school, using the state's conversion law.
    The mission was clear: The teachers and the extended 
community of parents and community leaders banded together in 
support of making a better school. They wanted to bring the 
school out of its complacency of underachievement, decline in 
facilities, low staff morale, and student apathy. Parents had 
been disengaged for many years. Professional development was 
nearly absent, and the school had reached a low point in 
statewide student achievement, earning a ranking of 1 out of 10 
on the similar schools scale.
    Despite opposition from district leadership, the charter 
school had tremendous support from Congressman George Miller 
and other key leaders who took a stand in support of our desire 
to become a charter school. The Contra Costa County Office of 
Education unanimously approved our charter petition. And then 
the work really began.
    I was appointed to be the executive director with a mission 
to galvanize the school into a common vision, leading the 
charter school from good to great. Then I hired a quality 
administrative team, and in just 6 weeks after I was hired, we 
opened the school with 1,900 students, the same students who 
attended the prior year.
    But the difference was immediate and astonishing. Much to 
the amazement of the staff, the parents, the students, the 
school was transformed almost overnight with the instructional 
framework of rigor, relevance, and relationships, as developed 
by Dr. Willard Daggett. I spent nearly a week with the teachers 
and administrators discussing what quality instruction looked 
like, how application makes learning relevant, and how 
nurturing relationships between teachers and students lays a 
foundation where students want to learn and they want to 
perform academically.
    Professional development became the constant theme. And one 
of the founding charter teachers, current administrator Neil 
McChesney stated, ``I received more professional development in 
1 year at the charter school than I had in 10 previous years.''
    Innovative intervention programs were implemented to 
support struggling students in the summers, after school, and 
even on Saturdays. There was an all-out focus on improving 
student achievement, and the teachers caught the vision. We 
embraced the very same strategies implemented by many other 
schools, charter schools alike, and these included powerful 
intervention programs to close the achievement gap, 
instructional guides, benchmark assessments, a failure-free 
zone policy where students had to do their work well or stay 
after school and do it over. The kids interpreted that as love.
    [Laughter.]
    We implemented innovative instructional approaches, 
extensive professional development. Parent involvement became a 
key theme with over 250 parents actively involved on a regular 
basis. Instructional software programs were utilized 
significantly. And then we implemented powerful counseling and 
guidance programs.
    While no single best practice is unique, the buy-in to 
these strategies by staff and the blend of all of these 
strategies has resulted in a whole new culture and a whole new 
campus. The desire by the teachers to do better and do more for 
students is remarkable.
    The autonomy is paying off quickly. Clayton Valley High 
School had the top academic achievement growth in California 
last year for large high schools. Their 62-point jump on the 
state's API took them from a score of 774 to 836 in a single 
year, ranking us at a 9 out of 10 on the statewide scale. The 
entire community of Clayton knows the significant 
transformation that has occurred. There is great community 
pride in our school. And CVCHS now has a waiting list of nearly 
400 students for the fall of 2014.
    Without becoming a charter school, this transformation 
would have never occurred. The success of Clayton Valley and 
the tremendous gains has caused the local district and other 
schools to pay attention and borrow from our best practices.
    And as the executive director, my ultimate desire is to see 
academic success for all the students in my community, those at 
the charter and those at other schools, and it is our 
commitment to share those best practices with everyone who will 
listen.
    Again, this success would not have occurred without 
becoming a charter, and I want to thank you for allowing me to 
share that story, and I want to thank Congressman George Miller 
for his support.
    [The statement of Mr. Linzey follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
           
    Chairman Kline. Thank you.
    Ms. Whitehead-Bust, you are recognized for 5 minutes.

STATEMENT OF MS, ALYSSA WHITEHEAD-BUST, CHIEF OF INNOVATION AND 
  REFORM, DENVER PUBLIC SCHOOLS, DENVER, CO (DEMOCRAT WITNESS)

    Ms. Whitehead-Bust. Thank you, Chairman Kline, Ranking 
Member Miller, members of the committee. I am honored to be 
here today representing Denver Public Schools and testifying on 
behalf of the important role that public charter schools play 
in our urban school system, a system which is dedicated to 
realize equity and achievement for all students.
    My name is Alyssa Whitehead-Bust. I serve as the chief of 
innovation and reform. And in that role, I oversee charter 
school authorization, quality control, and collaboration. 
Previously, for 15 years, I helped launch and lead charter 
schools across the country.
    I am proud today to be part of a district that I think is 
setting the pace nationally, in part because of our intentional 
and strategic strategy around equity and collaboration between 
all public schools in our system, including our charters.
    Denver Public Schools is one of the fastest-growing urban 
districts in the nation, serving over 87,000 students from 
diverse backgrounds. Of the district's 170 K-12 public schools, 
one in four are charter schools. Serving 13,000 students, 
Denver charter schools educate an equitable portion of the 72 
percent of our students who qualify for the federal free and 
reduced lunch program, as well as of the 39 percent of our 
students who speak Spanish as their primary language.
    In Denver, we see the success of the charter sector as a 
necessary, but not sufficient component of a larger strategy 
that focuses on ensuring equity of access to high-quality 
public schools for all students. We see collaboration and the 
transfer of promising practices as an equally, if not more 
important component of our strategy.
    We know that by collaborating across all school types and 
thinking of our charter schools in part as the R&D lab that 
their original federal mandate suggests, we can more quickly 
fulfill our fundamental promise to graduate 100 percent of our 
students ready to persist in college and career.
    Our three equities, as we call them in Denver, set a solid 
foundation for the collaboration that is propelling our 
success. Denver public charter school leaders, as well as our 
school board, have mutually adopted a set of commitments to 
ensuring equity of accountability, equity of responsibility for 
serving all students, and equity of opportunity to access key 
resources, including financial resources and facilities.
    As an example, all Denver schools are publicly held to the 
same accountability framework. In addition, all of our new 
school and closure standards are applied to all schools, 
regardless of governance type. A full 79 percent of our charter 
schools are located in district-owned or operated facilities. 
This shared commitment to our three equities has fostered a 
fertile ground for the success of our charter schools 
themselves, as well as for the collaboration between all 
schools in our public system.
    In Denver, charters do add quality seats to a system that 
needs them, filling both capacity needs and performance gaps 
across all areas of the city. While Denver has shown steady 
improvement in performance across all measures and all school 
types since 2005, charter schools have simultaneously and 
consistently outperformed other school models.
    Since 2010, our charter school enrollment has grown by 17 
percent annually. Charter schools are in high demand in part 
because their autonomies give them the opportunity to try 
innovative and promising new practices. For example, charters 
in Denver have led the way in piloting strategies related to 
human capital, school culture, instructional delivery, and use 
of time and technology.
    Denver charters were amongst the city's first public 
schools to expand learning time by extending both the day and 
the year. They have led the way in the use of data to drive 
instruction, as well as in establishing high-expectation 
learning cultures for both students and grownups.
    While these innovations are important unto themselves for 
the benefit of charter school students, they are particularly 
important in the context of collaboration. If isolated to the 
province of charter schools alone, such promising practices 
would only impact 15 percent of our students in Denver. But 
because of Denver's approach to equity and collaboration, these 
promising practices are able to spread quickly to schools 
across governance type; 5 years ago, expanded learning was 
largely a charter school strategy. Today, dozens of non-charter 
schools have extended both their days and their years to ensure 
that they are offering more and better learning time for kids.
    Denver students and families need our charter sector to 
continue and to continue to adopt and share promising 
practices. Cities across the nation likewise are depending on a 
thriving and successful charter sector as part of our shared 
and intentional strategy to provoke dramatic gains in student 
achievement and dramatic reductions in achievement gaps.
    I encourage Congress to align its work to the 
reauthorization with important role of charter schools being at 
the forefront of your mind. I thank you for your time and look 
forward to answering any questions you may have.
    [The statement of Ms. Whitehead-Bust follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Kline. Thank you.
    Mr. Rosskamm, you are recognized.

   STATEMENT OF MR. ALAN ROSSKAMM, CHIEF EXECUTIVE OFFICER, 
              BREAKTHROUGH SCHOOLS, CLEVELAND, OH

    Mr. Rosskamm. Chairman Kline, Ranking Member Miller, and 
members of the committee, thank you for inviting me to discuss 
Breakthrough Schools and the transformative education efforts 
happening in Cleveland, Ohio.
    Breakthrough is a nonprofit charter management organization 
operating nine schools, with over 2,500 students, and growing 
to serve almost 7,000 schools by 2020. Our student population 
is 96 percent minority, 84 percent low-income. For the second 
year in a row, Breakthrough is the highest-rated charter 
network in the state of Ohio.
    Our network had a unique start, growing out of a 
collaborative effort by three existing independent charter 
schools, each with a distinctive educational model. In 2009, 
they came together to improve their schools' long-term 
financial sustainability and to enable growth so that they 
could serve more children.
    Our partnerships with families is key to our students' 
success. Our teachers conduct summer home visits, and parent-
teacher conferences approach 100 percent participation in many 
of our schools.
    Our Through College Program mentors students and their 
parents in the selection of high-quality college preparatory 
high schools that best fit their needs. Those efforts culminate 
in one of my proudest evenings of the year, where the 24 best 
high schools in Cleveland--independent schools, parochial, 
charter and district schools--all join us for a high school 
fair, with our parents and our children shopping together for 
the right school.
    At Breakthrough, we particularly value our relationship 
with the Cleveland Metropolitan School District. Breakthrough 
Schools is currently the only charter schools in the city 
sponsored by the district. Together, we work toward solutions 
that benefit children. Breakthrough's principals and a group of 
district principals meet regularly for professional development 
and to share best practices. I feel I have a true partner in 
District CEO, Eric Gordon.
    We have also collaborated on facilities since 2011, when we 
purchased four closed buildings from the district and co-
located one of our new schools inside an existing district high 
school. In both instances, these were firsts in Ohio. The co-
location arose when the church lease we were counting on fell 
through just a few weeks before our new west side school was 
scheduled to open. Eric and the CMSD Board of Education showed 
tremendous courage and vision, allowing our elementary school 
to open in the basement of a district high school.
    Very quickly, we had CMSD high school students greeting our 
kindergartners at the door and walking them upstairs to 
breakfast each morning. When we outgrew that space, the 
district agreed to a lease of the empty school building next 
door for only $1 a year. There is a definite sense on both 
sides that we really are in this together. Our joint goal is to 
create more high-quality seats for children, regardless of who 
owns them.
    Our city is best known for our unique collaborative 
approach to urban education reform. The greatest example of our 
partnership has been the work with Mayor Frank Jackson's 
office, the greater Cleveland partnership, our Chamber of 
Commerce, the Cleveland Teachers Union, the Cleveland and Gund 
Foundations, the school district, and Breakthrough Schools to 
create and pass the Cleveland Plan: transformative bipartisan 
legislation that has enabled our city to pursue our shared 
vision of a portfolio school district, offering high-quality 
school options in every neighborhood.
    Part of the Cleveland Plan included the creation of the 
Transformation Alliance, a nonprofit organization charged with 
monitoring the quality of all Cleveland public schools, 
district and charter, to enable parents to make informed school 
choices for their children. Following the plan's passage, we 
worked closely together again to pass a $15 mil operating levy, 
the first operating levy to pass in our city in 16 years. 
Cleveland is only the second city in the country, behind 
Denver, to allow charter schools to receive a small portion of 
the local tax levy dollars.
    As I think the committee can see, in Cleveland all of us 
have put traditional differences aside for the benefit of the 
city's children. Breakthrough is an example of how educational 
entrepreneurs have created innovative schools that work and 
then proceeded to replicate to create quality seats for many 
more children.
    This phenomenon is taking place across the nation. 
Breakthrough is one of 24 high-performing charter management 
organizations that collectively operate more than 400 schools 
across 53 communities and 23 states, serving 154,000 students. 
If we operated as a district, we would be the 15th-largest and 
the highest-performing urban district in the country.
    With your ongoing support, we plan collectively to open 370 
new schools over the next 5 years and to serve an additional 
200,000 students. High-quality charters like those in the 
Breakthrough network and our peers across the country are 
proving every day that historically disadvantaged students can 
learn and excel.
    I thank you for the opportunity to speak with you this 
morning, and I look forward to your questions.
    [The statement of Mr. Rosskamm follows:]
    [GRAPHIC] [TIFF OMITTED] T6827.026
    
    [GRAPHIC] [TIFF OMITTED] T6827.027
    
    Chairman Kline. Thank you very much. I thank all the 
witnesses, really, really great testimony. We have been doing 
some chattering up here, not out of disrespect for what you are 
saying, but out of interest in what you are saying. So really, 
really very, very good testimony.
    Mrs. Keegan, I think there is a lot of misunderstanding--or 
lack of understanding may be another way of putting it--of the 
role of authorizers. And we know that authorizers authorize the 
school to start, and they play a role in closing, but can you 
sort of lay out what the role is from inception to potentially 
end, just tell us how that works?
    Mrs. Keegan. Yes, sir. Mr. Chairman and members, this role 
has evolved, as you know, but primarily charter school 
authorizers--and Arizona was the first state to have a state 
board specifically for charter schools, no appeals process, 
that is their job--now there are any number of different kinds 
of authorizers.
    Certainly, the local school district remains an authorizer 
in most of the 42 states. As one option, there are state boards 
for charter schools. There are other independent boards, often 
out of universities or other community service organizations. 
So those boards are charged with basically accepting the 
application from a group of teaching professionals that say, 
this is the school we would like to run.
    There are sometimes transformative moves, as Mr. Linzey was 
describing, where there is the opportunity to convert from 
traditional practice, traditional district school, to a new 
converted public charter school. So many, many different kinds 
of governance within even the charter sector itself.
    So authorizers take that first look, and they say yes or 
no, you can go into business or you may not, and that is not 
where it stops. Charter contracts generally now, 5 years at the 
start. At NACSA, we recommend that all be no more than 5 years 
at the start, and maybe if you have been a great school for 
decades, you can have a 15-year contract, but you have got to 
prove that you are great over time.
    That work of watching a school over time is what I think is 
most interesting right now. We have a lot of networks that we 
know have replicated themselves, the Breakthrough network 
notably among the best in the country. So we know what that 
looks like. And more than that, we know what Alan looks like. 
This has a lot to do with people. People are policy. People are 
practice. And so it is up to a governing board, a charter-
authorizing board to recognize the expertise of the people 
behind that application at inception and then ongoing.
    And then it is their job when the schools fail to shut that 
school down. That is never easy. It is never easy for kids. 
Oftentimes, you can shut that public charter school down 
knowing that kids will not have better options. Hopefully we 
are coming up with better ways to maybe transfer those charter 
schools over to networks like Breakthrough that are 
exceptional, let a better team come in and take that over so 
that students don't lose in that equation. But for sure, 
charter authorizing boards that are overseeing schools that 
cannot make good on their promise have got to shut those down.
    Chairman Kline. And you can do that fairly quickly? How 
long does it take you to shut a school down?
    Mrs. Keegan. Mr. Chairman and members, it has been taking 
way too long. I would say part of that was lack of data in the 
first place. Now we know pretty quickly. We know within the 
first 2 years, quite frankly, the school is going to make it or 
it isn't.
    I have to say, for the first 10 years, though, as these 
schools got up and running, there is a bunch of them I am glad 
we didn't shut down, particularly community schools that were 
struggling to get it right, and many have now. I am glad we let 
them go. But it doesn't take long now.
    And the practice--organizations like NACSA that can help 
charter authorizers understand the laws and regulations they 
need to have in place to be able to quickly close these schools 
down or bring in better operators, that knowledge is coming, I 
think is here now, and just more boards have to adopt it.
    Chairman Kline. What do you have to do legally to shut one 
down? I hate to be focusing on the shutting down part here. We 
are excited about charter schools and them starting, but 
clearly, this is a power, this is a practice, this is a 
possibility that really doesn't exist in the traditional public 
schools. So how do you do that?
    Mrs. Keegan. Mr. Chairman and members, the charter school 
has a contract that says they will do a certain number of 
things, and charter authorizing boards now, fortunately, have 
set most of the good ones at an even higher standard than the 
state has. Once that is violated, the school is noticed under 
whatever legal notice process exists in the state, and so it is 
a legal notification process.
    It probably takes at least 18 months, and so that is why 
you have to get right on it, because this is a right, as you 
have indicated. A contract is a right. It is a business right. 
But charter authorizers can act very quickly to give that first 
notice that the charter has not been met as soon as you see, 
you know, reporting, academic reporting or financial reporting. 
Often these are financial problems, and they need to act on 
that as quickly as possible, probably no shorter timeframe than 
18 months, but it shouldn't be much longer than 2 years.
    Chairman Kline. Okay. Thank you very much. My time has 
expired.
    Mr. Miller?
    Mr. Miller. Thank you, Mr. Chairman. Dr. McGriff referred 
to the National Center on Special Education Charter Schools. I 
would like to submit for the record their testimony and ask 
unanimous consent to be made part of the record.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    
       
    Chairman Kline. Without objection.
    Mr. Miller. Thank you.
    Mr. Linzey, given the nature of the attendance area of 
Clayton Valley charter high school, I wonder if you might 
describe what you saw at Clayton Valley prior to its conversion 
to a charter school.
    Mr. Linzey. I was able to visit the school in the several 
months prior to us becoming a conversion school. And the 
school, quite honestly, looked apathetic. The students looked 
disinterested. It was obvious there was apathy amongst the 
kids.
    In speaking with staff members, there was incredibly low 
staff morale, frustration, and so the campus wasn't very clean. 
The facilities did not look like they were kept up very well. 
It is about a 60-year-old facility, and it looked like it. It 
had aged every bit of that and then some.
    And so there was some hope by the leaders of the 
conversion, there was a hope by a lot of staff. The parents 
were incredibly excited about the newness, the new opportunity 
to be a part of this school again. In talking with many of the 
parents, they just weren't a part of the school for the past 
number of years.
    Mr. Miller. Can you describe the demographics?
    Mr. Linzey. The demographics--it is a suburban school. It 
is not like the traditional--or what you might see in a normal, 
very urban school. It is predominantly Caucasian, and then the 
next subgroup would be Hispanic population, with smaller groups 
of Asian and African-American students.
    There is probably about a 20 percent free and reduced lunch 
student body there, and then there is a segment of English 
learners. I would like to report that every single subgroup 
grew significantly on our state tests, and most successful were 
the groups that were the farthest behind. And we took great 
pride in that.
    Mr. Miller. You have 20 percent free and reduced. You also 
have some very high-income.
    Mr. Linzey. We do. It is a suburban school, and the city of 
Clayton is a more affluent area. So that is kind of rare to see 
a conversion charter school in a suburban setting like that, 
but just shows you the level of frustration that was in 
existence.
    Mr. Miller. Thank you.
    Ms. Whitehead-Bust, the question of facilities, can you 
describe the process by which facilities are able to be made 
available for charters in Denver?
    Ms. Whitehead-Bust. We have an internal policy that allows 
us to think about equitable placement of our charter schools, 
thinking about our vision of ensuring that all students have 
access to a high-quality school. We look first and foremost at 
the track record of the school and its ability to serve 
students in a particular neighborhood.
    We then also look at the ability for a school, if they are 
going to be co-located, sharing a campus, to collaborate with 
the school that is also on that same campus. So are there 
opportunities to share professional learning, programming, 
school culture, those kinds of things? So charter schools have 
the opportunity to present their case to us, that they would 
like to be located in a district-owned or operated facility, 
and then there is a placement process that looks at a variety 
of transparently publicized criteria, and then we make our 
decisions from there.
    Mr. Miller. - they are co-located, between the charter and 
the traditional school?
    Ms. Whitehead-Bust. You know, I would follow up on the 
statement that we are getting better and better at this work 
overall. I think if you looked at our first campus-sharing 
campuses, you would see that we have gotten considerably more 
intentional about placement decisions today to ensure the kind 
of collaboration that we really want.
    So I will give you a very specific example. We have a 
campus in the middle of urban Denver that co-locates Cole 
Elementary School. It is an innovation school and the Denver 
School of Science and Technology middle and high school. And 
they have adopted a shared mascot, shared language for student 
discipline, shared systems and structures to have adult 
learning transfer from one side of the campus to the other side 
of the campus. That is working incredibly well. It is working 
that well in part because we learned from some of our early 
experiences.
    Mr. Miller. Thank you. Thank you, Mr. Chairman.
    Chairman Kline. Thank you. Dr. Roe, you are recognized.
    Mr. Roe. I thank the chairman for recognizing. And kudos 
for all of you all for what you are doing. I mean, it is just 
amazing what I am hearing. And, Mr. Linzey, job well done. I 
wanted to start out by saying that.
    I have heard a common theme, and I would--I have got a lot 
of questions I am going to submit to you all in writing, but 
one is, why do we need--why do we need charter schools? I mean, 
and I think the reason is, is to narrow the achievement gap, I 
believe is the reason that we are having that, and I want to 
know how you define a failing school.
    I hate to go back to what the chairman was saying, but I 
have been a former mayor. Fortunately, I just got to build 
schools, but closing one is your worst nightmare. So I know 
just from a standpoint of a community and how they are attached 
to the school, that is a very difficult thing to do, so I would 
like to have you all talk about that.
    Do you use a common curriculum? Are you all in the charter 
school system--because we know--ought to know now what works. 
And if you know in 2 years what failure is, already you have 
defined that, then why don't we just--when we start one of 
these--do what works?
    And what I have heard you all say is, we have to have great 
teachers that are constantly motivated, and the question is, 
how do you not hire underperforming teachers? That is also very 
hard. Great leadership in the principal's office I think is 
another thing I have heard, the length of the day. Nobody wants 
to go to school longer. Mr. Linzey, I can assure you, if you 
had challenged me with studying and getting my work done or 
staying after school, I know what I am going to do. It is good 
leverage.
    [Laughter.]
    And then summer programs, no one talked about that, about 
how you narrow that. So I will stop. I want to hear what you 
have got to say about all of those things. And anybody can 
answer that.
    Mrs. Keegan. Mr. Chairman, Congressman Roe, I am happy to 
start this, and there is a great deal of expertise here, so I 
will be brief.
    But I would simply say, the curriculum that each of these 
schools choose is going to be very different. It is mind-
blowing, actually, what is out there, some schools using a 
hybrid techniques, part digital learning, part teachers, some 
using very traditional methodology that I would recognize as my 
grade school eons ago.
    And yet it is about a decision to be excellent in excellent 
schools. I would even say that at this point what we know is it 
is not so much what a charter school does, it is what a school 
does, and that looks the same whether it is district, charter, 
magnet, all public schools, governance aside, once you get in 
there, it is about instruction and the decision to be at, A, 
using the time and the intention and the expertise to get 
there, and you can do it in a lot of different ways. What you 
see as an authorizer, however, is it is either being done 
according to the contract with data that shows you it is or it 
isn't. So I will let my colleagues speak to that.
    Mr. Linzey. Yes, thank you. And thanks again for the 
questions, outstanding questions. I would like to just speak to 
the issue of curriculum for a second. Most charter schools, all 
charter schools that I am aware of teach to the standards of 
their state curriculum, so the common curriculum is the same 
curriculum as the state you are in. And now we are moving to a 
national curriculum, the common core curriculum, and so that is 
a big shift for all schools in the nation, really.
    But within the curriculum, there is instruction. And so 
instructional practices vary greatly from school to school, 
from classroom to classroom in a school, and so it is up to the 
leadership within the school to ensure there is high standards, 
quality instruction, monitoring, professional development, and 
with budget cuts in California, I know, and probably every 
other state, a lot of the funding for professional development 
has been cut and days for professional development in the 
summer has been cut.
    But as a charter school, you have that autonomy to spend 
your dollars where you think it needs to be spent, so we still, 
with the same dollars that other schools got, charter or non-
charter, we were able to fund teachers the past 2 summers for 
extensive professional development and then to pay teachers to 
work on Saturdays to work with intervention programs, using 
research-based practices.
    I like to tell our teachers, not every strategy is the 
same. There are research-based practices. Dr. Robert Marzano 
has his nine that are the highly effective strategies. That 
became our bible for, let's get these nine done well, and then 
we can move on to some others.
    Mr. Roe. My time is about expired. Let me get two quick 
questions. Where are charters located? Are they urban? I live 
in a rural area. Where are they located? And, two, how do you 
answer the question about charters taking money away from 
underfunded public schools and selecting students? I think that 
is an argument you hear all the time, so I don't know whether 
you have got time to answer, but in writing I would like to 
hear those.
    Mr. Rosskamm. I would be happy to comment on the funding. 
There is no question that when students leave a school, a 
certain number of dollars leave with them. Whether they are 
leaving the city altogether because parents feel they can get a 
better education in a suburban district, whether they are 
moving to a parochial or independent school, or whether they 
are moving to a charter school.
    On the other side of that equation, at least in our city, 
and in our state of Ohio, the charter schools that are 
accepting those children are only getting--are getting less 
than two-thirds of the funding that the district school is 
spending per child, and the district facilities are funded 
through bonds and through state facilities, whereas the charter 
schools are paying rent on those facilities.
    So we start with a substantial disadvantage, and yet we 
have to do the same job and hope to do that job better.
    Mr. Roe. Thank you. Mr. Chairman, I yield back.
    Chairman Kline. Thank you. Mr. Hinojosa, you are 
recognized.
    Mr. Hinojosa. Thank you, Chairman Kline and Ranking Member 
Miller.
    I strongly believe that all schools, including charter 
schools, should offer a high-quality education and serve all 
students equitably. I have experience as the local school board 
of trustees member. I have experience as the member of the 
Texas State Board of Education for 10 years and a trustee for a 
community college before I came to Congress.
    So much of what we are discussing today is of great 
interest to me, because I believe that charter schools, 
especially those that are high-quality charter schools, are 
definitely contributing to our education progress in schools 
throughout the United States.
    But I have a problem with seeing that in my state of Texas, 
where we have over 6 million students in our K-12 programs, 
that the legislature cut $6 billion about 3 or 4 years ago, and 
we had to raise the average of students in each classroom from 
what was average to have 22 up to 25, 28.
    I looked at the statistics that several of you have given, 
like the state of Ohio, with a number of students and campuses, 
and it equals 280 students per campus. I looked at the state of 
Texas on our public charter schools, the number of campuses we 
have, and it averages 323 per campus.
    So wanting to make all of our schools operate as well as 
the exemplary and high-quality charter schools, tell me how 
that can be done. All the public schools my children have gone 
to have had close to 1,000 students in that campus, high 
schools. My last, fifth child is in high school with 2,000 
students.
    So it just seems like we are comparing two different types 
of programs for so many students in the average public school 
in the country versus our best charter schools. So let me ask 
Ms. Whitehead-Bust, what is your answer to changing things in 
our public schools?
    Ms. Whitehead-Bust. One of the things that we are finding 
in Denver is incredibly helpful is pairing teachers and school 
leaders between different school types to share their promising 
practices. You are referencing perhaps small schools as being 
one strategy. We see many strategies that are really important 
for student success, data-driven instruction, high-quality 
student culture, high-quality adult learning. We heard from our 
colleagues that operate schools some of the strategies that 
they have put in place.
    And so in Denver what we have tried to do is pair our 
leaders and educators from across different schools to share 
some of those promising practices. So as an example, STRIVE is 
one of our highest performing charter networks in Denver. They 
operate largely a series of middle schools. They host, as an 
example, extraordinarily high-quality data analysis sessions 
with their teachers that allow their teachers to turn on a dime 
and shift their instruction the very next morning to make sure 
that they are accelerating and recuperating learning for all 
students. They open those sessions to all teachers in the 
district so that they can come and observe and use those very 
same practices when they go back to their own campuses the next 
day.
    And so we see slowly, step by step, these practices sharing 
across campuses. The charters are also learning from direct-
managed schools. It is not a one-way sharing, but we very 
intentionally pair educators together.
    Mr. Hinojosa. Thank you for sharing your thoughts with me. 
I have time for one more question, this one to Dr. McGriff. Can 
you share your views on the proliferation of virtual charter 
schools and, in particular, how these schools equitably 
serving--how are these schools equitably serving and meeting 
the needs of students with disabilities and English-language 
learners?
    Ms. McGriff. At the National Alliance, we are supportive of 
all models of charter schools, because we know that kids learn 
in lots of different ways and parents have different 
expectations for students. I cannot speak very specifically 
about the stats on special education or language learners in 
virtual schools, but in charters overall, there is not a 
disadvantage for special education students or English-language 
learners. And the research is pointing out that the students 
are equally represented when compared to traditional schools.
    I do also want to go back and say, we can't judge any 
school on a single factor. And what we tried to talk about 
today are the constellation of factors that make for a great 
school.
    Mr. Hinojosa. My time has run out. I yield back.
    Chairman Kline. I thank the gentleman. Mr. Walberg?
    Mr. Walberg. Thank you, Mr. Chairman. And I thank the panel 
for being here. It is really invigoration to hear students, 
parents, and teachers talked about more than just simply past 
history of educational status quo. Students needs primarily are 
what we ought to be concerned with.
    And, Dr. McGriff, it is good to see you. I remember as a 
member of the Michigan House Education Committee watching your 
all-too-short tenure in Detroit Public Schools.
    Ms. McGriff. Nice to see you.
    Mr. Walberg. As you were given all sorts of accolades from 
people who really cared about the product of the Detroit Public 
School system being given a chance to ultimately be educated to 
meet the needs in the real world and have the same opportunity 
that other school students had in other districts. I just 
wonder, had some of your innovative new course charting 
proposals in that great school system and a great city, that 
hopefully will return to its greatness, if that had been 
allowed to bring about its full results, what difference there 
might be in Detroit this very day.
    Ms. McGriff. Thank you.
    Mr. Walberg. We hope that as a result of the work that you 
and other panel members are doing that we see that change.
    Let me ask you, Dr. McGriff, you discussed in your 
testimony the efforts and the intentions of charter schools to 
create a collaboration between public charter schools and 
traditional public schools in order to share best practices to 
educate students, again, the needs of students versus the 
status quo desires of the educational establishment. What role 
do charter schools play in that collaboration? And more 
specifically, if you could expand on how they benefit 
traditional public schools?
    Ms. McGriff. I think the panelists have addressed that. I 
happen to be on the board of the Denver School of Science and 
Technology, and the example that was given for Cole Middle 
School as a way of sharing, but generally, when there are 
district charter collaborations, we have pointed out 
achievement first, for example, provides principal training for 
all the principals in the city, because their principal 
training program is considered to be that thoughtful.
    I know that DSST has put into place a really strong human 
capital initiative. They are also engaged in 100Kin10, which is 
an effort to raise 100,000 STEM teachers in urban areas, and 
those ideas through PD are shared.
    We also--for here in D.C., for example, there are a number 
of initiatives that are implemented in the charter school 
network that the district public schools will also implement. 
And I will give you an example. We talked about benchmarking 
today, and there is a benchmarking system that lots of charters 
use called achievement network, is used in the charter schools 
in D.C., but it is also used in the public schools.
    So there isn't this division. And sometimes schools have 
the same theme. People ask, why charter schools? Because 
parents want different kinds of schools. They want performing 
arts schools. They want science schools. They want Montessori 
schools. And often you may have a charter school with that 
theme and a public school with that--a traditional public 
school with the same theme, so they collaborate across 
instructional strategies and building programs.
    I can't think of a single idea where a charter--an 
innovative charter school and an innovative traditional public 
school could not collaborate if they chose to.
    Mr. Walberg. And that is the key, isn't it? The--
    Ms. McGriff. It is. And another--I will give you another 
example. I happen to live in Milwaukee, and we have an 
initiative called Schools That Can Milwaukee. It is a 
collaborative of the highest-performing traditional public 
schools, highest-performing charter schools, and highest-
performing publicly funded private schools. All you have to be 
to be a part of this network is to be high-performing. And the 
goal of the network is to bring 20,000 additional high-
performing seats to the city by 2010.
    Mr. Walberg. What a great concept. What a great concept. In 
my remaining moments, Mr. Rosskamm, when looking at reform, are 
there any federal obstacles that we here can assist you in, in 
helping removing to make your success even better?
    Mr. Rosskamm. In Ohio, many of our obstacles are state 
obstacles. What we do desperately need--and I guess the 
legislation is before you--is funding to replicate what works. 
Innovation is an important part of the charter movement, and we 
need to continue to fund innovation, but once we have proven 
something, there is no greater return on investment than 
providing funds to replicate what is working. And we 
absolutely, desperately need your help to be able to continue 
to do that.
    Mr. Walberg. Thank you, Mr. Chairman.
    Chairman Kline. Thank you. Mr. Bishop?
    Mr. Bishop. Thank you, Mr. Chairman. And thank you very 
much to the panel for your testimony and also for your work on 
behalf of our nation's students.
    I feel sort of like a voice in the wilderness here, but I 
just need to put this out there. The Elementary and Secondary 
Ed Act reauthorization that this committee passed freezes 
funding for Title I and IDEA for the next 5 fiscal years at the 
fiscal 2013 post-sequester levels. It also--that same bill--
suggests that the federal government should be providing 
financial support for the planning, program, design, and 
initial implementation of charter schools, and to expand the 
number of high-quality charter schools available to students 
across the nation. I am quoting from the bill.
    So my question is, we are going to freeze--if this 
committee's bill were to ever take on the force of law, we 
would freeze funding at admittedly inadequate levels, post-
sequester levels, for fiscal year 2013, so we would carry 
forward a level of funding that is inadequate, and yet we would 
be funding at an increased level charter schools.
    And so my question to you is--and I will ask each of you to 
respond briefly--is that a good public policy choice? Should we 
really be reducing our support for the traditional programs of 
Title I and IDEA, and doing so, so as to increase--or as a 
potential consequence, increase the support for charter 
schools? Is that the right public policy choice for the federal 
government to make?
    And so I just put that out there as a question.
    Mr. Linzey. My reaction to that is, nobody that I know of 
in education wants to cut funding for Title I and IDEA. So I 
don't think that is a good policy to cut funding for special ed 
students and for Title I students, but my question to you back 
would be, where do you get your biggest bang for your buck, if 
you have limited dollars?
    Mr. Bishop. And that--see, that is where I am heading, 
also.
    Mr. Linzey. Right.
    Mr. Bishop. And we may be coming to a different conclusion, 
but 95 percent of our students are educated in public schools. 
And so I guess I would argue that is where you get the biggest 
bang for the buck. But you may have a dissenting opinion.
    Mr. Linzey. Yes. I think the data that I have seen, which 
is national data, CREDO Institute, is showing that charter 
schools are making significantly more gain than their 
traditional public schools.
    Mr. Bishop. I am going to push back on that a little bit. 
That data, that CREDO data, if you really look at it, what it 
really shows is that there are either no differences or 
infinitesimally small differences in performance of public 
school students versus charter school students. And so I 
guess--again, and this is not to knock charter schools. This is 
to question why it is we seem to be moving headlong in a 
support of charter schools at the expense of traditional public 
schools.
    Mr. Rosskamm. If I could, I would like to respectfully 
suggest that maybe that is the wrong question. In Cleveland--
    Mr. Bishop. I am a member of Congress. Of course I have got 
to ask the wrong question--
    [Laughter.]
    Mr. Rosskamm. But your privilege, of course. In Cleveland, 
our mayor has said that--to use his words, he is over that 
question. What he is interested in is supporting high-quality 
schools, both district and charter, and seeing a reduction in 
poor schools--and either turning around or doing something 
about the underperforming schools.
    And I want you to know, from a charter perspective, we 
need, desperately need those dollars for special-needs 
children. We take that obligation and that responsibility 
equally seriously and need those funds.
    Mr. Bishop. I guess where my concern is--and maybe--and I 
am maybe doing too much talking and not letting you answer, but 
I think you can probably make an argument that more money 
doesn't necessarily equate with quality. But I am not sure you 
can make an argument that if you continuously drain resources 
out of the public school system that is not going to result in 
diminished quality.
    And that is my concern. In New York, the way charter 
schools are funded is by basically taxing the sending district 
the tuition that they would normally receive from the student 
going to that school to the charter school, so they are getting 
hit both ways. And so my challenge is or my question is, is 
this really where we should be going? Or shouldn't we be 
increasing the size of the pie? If we are that committed to 
charter schools, shouldn't we be increasing the size of the 
pie, instead of slicing it differently?
    Mr. Rosskamm. Mr. Chairman, could I respond to that, as 
well?
    Mr. Bishop. Have I taken too long?
    Chairman Kline. The gentleman's time has expired.
    Mr. Bishop. It is a great question, Mr. Chairman.
    Chairman Kline. A fine question. We will probably have a 
chance to pick that up later.
    And just for the record, in the Student Success Act, 
Elementary and Secondary Education Act, which not only passed 
the committee, but passed the floor, we did not cut a dime from 
IDEA. We didn't address special education. And I think I would 
agree with the gentleman that we as an institution, we as a 
country are not doing our job in increasing that money for 
special ed, but we did not cut it, just for the record.
    Dr. Bucshon, you are recognized.
    Mr. Bucshon. Thank you, Mr. Chairman. First of all, I would 
like to say, you know, we could use your help in getting the 
United States Senate to bring their version of the bill to the 
U.S. Senate floor, maybe pass that, and then we can get to 
conference and work out our differences.
    With that said, Dr. McGriff, my question surrounds the 
number of hours kids spend in school and what charter schools 
across the country are doing with that. I mean, I think many of 
us know--and I have four kids, and I am not an educator, but I 
study the subject a lot, that other countries around the world, 
their children spend more time in the classroom than ours do, 
dramatically more time in the classroom.
    And I think we also know that lower socioeconomic class 
students, when they have long summer breaks, regress at a 
faster rate than students from higher socioeconomic 
populations, primarily, I think, probably from because of the 
lack of parental engagement and other factors. They are just 
trying to get by day-to-day. They don't have time to worry 
about these issues.
    So can you comment on maybe what charter schools--the trend 
in charter schools is across the country and hours in the 
classroom and maybe length of breaks that charter schools are 
doing? There are some schools that are going to year-round and 
how that might--if there is data out there that shows that 
that--in America, that works, and how that could spill over 
into--or the rest of our educational system, which admittedly, 
I think, in my view, is stuck in the past.
    Ms. McGriff. I think when we think about more time, we have 
to look at, more time doing what? And we also have to look at, 
what is the current developmental stage of the school? So if 
you look at charter schools that are launching and they are 
getting a new set of kids, they are going to have a very 
different approach to how to use time, where the extra time 
should be, than if you are looking at a CMO that has been in 
operation for 15 years and they have now developed a culture.
    So let's talk first about the really early-stage school. 
Generally, they will not open without having the kids who are 
coming to them the first year come to some type of summer 
school. They think that culture-building before they get in the 
room in September is an important thing to do.
    When you diagnose kids, and they are three and four grades 
behind, and they are in ninth grade, you are not going to catch 
them up unless you are doing after-school programs that you 
have to come if you don't do your homework. They are building 
in these kids the resiliency and the sense of responsibility 
and good use of time.
    And you are absolutely right. Low-income children regress 
every summer. So if you don't have--the programs are 
innovative. They are not just the traditional summer school 
programs. They have these kids going to college campuses, 
spending experiences on college to get them to know, college is 
for you, and you can be successful. Or they are sending them to 
STEM camp.
    So I think when people say more time and an extended day, 
they don't really look deeply into the innovations that--and it 
is not just charter schools. The great quality traditional 
public schools do exactly the same thing with time.
    I think what we are learning from the CMOs in our 
portfolio, that over time, as the--especially if the CMO has a 
feeder pattern K-12, they are now getting kids that are not so 
far behind, they are beginning to cut back the number of hours 
to be more consistent with what kids need. But that takes years 
of having kids that you have had since kindergarten now coming 
into your middle schools and your high schools.
    Mr. Bucshon. Yes. Ms. Whitehead-Bust, do you have any 
comments on that, about what you are doing in Denver as it 
relates to hours in the classroom and innovation as far as--as 
was pointed out by Dr. McGriff, effectively using the extra 
hours, if you are going to have the students there, how you can 
most effectively use that time?
    Ms. Whitehead-Bust. I would reiterate that it is not just 
more time, but more and better time. And so we are using the 
opportunity for expanded time to think about acceleration and 
recuperation of students simultaneously so that you are 
ensuring that your students who are struggling to meet your 
grade level proficiency standards have the opportunity to catch 
up, but simultaneously making sure we are not thinking about 
our standards as a ceiling. They are intended to be a floor.
    And so we have some students who need acceleration so that 
they can exceed those minimum standards, in addition to really 
focusing on the non-cognitive success factors that we know are 
essential for students to persist through college and careers, 
so working on opportunities to set goals to build a sense of 
values within a student culture that we know transcends 
critical thinking, collaboration skills, et cetera. We ask that 
our schools come forward with plans. In most cases, they are 
adding about 100 hours to their school year through a 
combination of extended day and extended year. They work in 
small cohorts, again, so they are sharing best ideas and best 
promising practices across schools.
    Mr. Bucshon. Thank you, Mr. Chairman. I yield back.
    Chairman Kline. Thank you.
    Mr. Polis?
    Mr. Polis. Thank you, Mr. Chairman. I would like to thank 
the chair and the ranking member for bringing before us such 
excellent witnesses on an important topic. This hearing is 
really helping to showcase the impact of public charter schools 
as a tool within public education.
    I think there has been a great discussion of charter 
schools as a strategy to boost academic achievement for all 
students. And we are particularly thrilled that the committee 
has called this hearing. As the founder of two innovative 
public charter schools myself, one currently chartered through 
Denver Public Schools, the Academy of Urban Learning, the 
other, the New America School in New Mexico and Colorado, with 
five campuses, I have really been in the practice of founding 
and, in the case of New America School, running a 
superintendent, a charter school, I really got to see firsthand 
how we were able to use the flexibility afforded to us by our 
authorizer to meet the learning needs of the kids that came in 
our door.
    Public charter schools across the country are demonstrating 
time and time again that where a child lives, their ZIP Code, 
their economic background, their ethnicity need not determine 
his or her educational outcomes. In my home state of Colorado, 
public charter schools are developing innovative strategies, 
attracting great talent to the room, districts like DPS, who we 
heard from Ms. Whitehead-Bust, charter schools are serving as 
laboratories of innovation and are very much part of the 
district, in terms of sharing best practices.
    One of the frustrations that I have sometimes is when 
people at the district level or elsewhere say, oh, it is us 
versus them. Well, Denver Public Schools is an excellent 
example of a district that very much views charters as part of 
us, as it should be. It is part of the public education system.
    And I am not for traditional schools, charter schools, 
neighborhood schools, magnet schools, per se, but I am for 
great schools. And no matter what the governance model, we want 
to make sure that there is a great public school for kids to go 
to. And sometimes we get caught up in these arguments of, oh, 
it should be--they should run it or this adult should run it or 
it should be part of this or part of that.
    That is not what makes an impact for the kids. What makes 
an impact for the kids are great teachers in the classroom, 
with great school leadership, enough learning time, and we have 
proven time and time again that works, and that is good news 
for public education in our country. And we have had many great 
schools testifying, including some who testified here today, 
like Breakthrough Schools and Clayton Valley, truly great 
schools.
    Now, the charter school program is a critical way that the 
federal government partners with state and public charter 
schools. Many, if not most charter schools might not exist 
today if it were not for this charter school program. Before 
any of the state or local funding even kicks in, charter 
schools have expenses. And it is absolutely critical that the 
charter school program allow charter schools and innovative 
schools to get off the ground.
    In addition, charter school program rewards states with 
strong authorizing practices, provides incentives to ensure 
that laws allow public charter schools to thrive, seed the 
growth and expansion of excellent charter schools that defy 
expectations for kids every year.
    My All-STAR Act, which I introduced with Representative 
Petri and many other members of this committee, would improve 
this program by investing in high-quality charter schools, 
reward states with laws that afford additional freedoms for 
charter schools, ensure that authorizers don't hand out 
charters like candy, but have a thoughtful process around 
making sure that the applicants can deliver on the model.
    I want to get to my questions. My first is for Ms. 
Whitehead-Bust. Of course, thrilled to highlight the 
outstanding work that Denver Public Schools near my district 
has done to improve outcomes for our most at-risk kids. I want 
to talk about how being a portfolio district that values 
different governance models--she mentioned innovation schools. 
That is a concept in Colorado. It is kind of like a charter 
school-lite concept, where it is part of the district, it is 
kind of a hybrid between the two. Some states have those, as 
well.
    How has being a portfolio district given you additional 
tools as a district to expand and replicate high-quality 
schools to ensure that more kids have access to high-quality 
schools?
    Ms. Whitehead-Bust. I appreciate the question and the focus 
on equity and access for all kids across our system. I think as 
a portfolio district, we have had the opportunity to define 
publicly and transparently the criteria that we use both to 
open new schools, to support all schools within our portfolio, 
regardless of governance type, and to have an assertive stance 
on closing schools who aren't getting it done for kids, in 
particular our kids who most need high-quality options.
    Mr. Polis. And let me feed you one more question with the 
limited time. Talk a little bit about what Denver has done to 
ensure that all schools are serving with special needs, and 
especially severe special-needs students.
    Ms. Whitehead-Bust. In Denver, our charters have signed up 
to help serve a proportional percentage both of our English-
language learners and of our special education students. We 
have led the nation recently in opening center-based programs 
within our charter schools--we have about 10 today--to serve 
our most severe needs, special ed students, and in addition to 
stepping up to provide equity of access for those students, 
they are helping us innovate. How do we discover more inclusive 
models as an example? How do we ensure that expectations and 
culture are appropriate for all students? So we are learning 
together in that endeavor.
    Mr. Polis. So many more questions, Mr. Chair, but I will 
yield back.
    Chairman Kline. Thank you. The gentleman's time has 
expired.
    Mr. Rokita?
    Mr. Rokita. I thank the chairman. I thank the witnesses. It 
has been great testimony.
    I want to start off by associating with Congressman Polis' 
remarks. I think he is exactly correct. I mean, who here 
shouldn't be for great schools, no matter what the governance 
structure? And this idea that money is being siphoned off or 
compartmentalized or whatever I think goes to--I think it was 
the mayor of Cleveland's point. I am over that question. I am 
over it.
    I mean, if the product of competition is the movement of 
some funds, you know, I think that, in fact, can be a very 
healthy thing, ultimately. Competition is a good thing. It is 
good in every other part of our lives. And to the extent there 
is competition for the effective and efficient teaching of our 
greatest asset, which is our children, so be it.
    In that vein, I would simply, again, state for the record 
it is kind of been an ongoing debate around here, but the fact 
is that, since 1970, at the federal level, we have increased 
spending on education 300 percent. And my data shows that there 
has been little or no commensurate improvement, however you 
want to measure improvement. It certainly doesn't match the 
kind of money we are spending, so I don't think we have a money 
problem.
    And if any of you differ with that, I have heard some 
comments about, oh, we definitely need the money. And I 
understand that. But if any of you believe--and I would like 
this for the record that pushing more money at this without 
change in governance structure, without doing something 
differently, like you all are doing, you know, I would like to 
know that opinion. Anybody? Let the record reflect, no one is 
taking that bait.
    Mr. Linzey. Well, no--
    Mr. Rokita. Except for Mr. Linzey.
    Mr. Linzey. Does there need to be more funding? My answer 
is, for innovative schools, yes, there needs to be more 
funding, because we are limited by the amount of dollars given 
to charter schools--
    Mr. Rokita. But from a macro standpoint.
    Mr. Linzey. From a macro standpoint--
    Mr. Rokita. Should we increase another 50 percent? We have 
already increased funding 300 percent since 1970.
    Mr. Linzey. Right. And I would say, for those good 
organizations, those innovative and effective organizations, if 
we can get whatever monies there are to them so they can do the 
work that is proving to be successful, we need to do that. 
Whether you want to say more dollars or--I don't know how to 
take dollars away from current groups.
    Mr. Rokita. Thank you, Mr. Linzey. How do you measure 
success?
    Mr. Linzey. How do I measure success?
    Mr. Rokita. Yes, in your last statement.
    Mr. Linzey. Ultimately, it is going to be jobs. And then 
what is your key to getting kids to jobs? It is going to be 
literacy skills, college readiness, and what we are moving 
towards in the common core standards. That is--but the ultimate 
proof of success is, are they employable?
    Mr. Rokita. Has the charter school concept been around long 
enough to prove success under how you define it, Mrs. Keegan?
    Mrs. Keegan. Mr. Chairman, Congressman, absolutely, it has 
been around long enough to prove success. And I think there has 
never been a more exciting time to go into public education 
because of this, because educators are at the helm of this, 
because they are bringing their own answers. You have got two 
great examples here of the school leadership that is out there 
now, and it is providing a different path.
    So I think in the future, funding ought to be about 
individual students and follow them to schools that work in the 
public sector. We ought to be very concerned that there is 
enough money that is equitably accessed by students, regardless 
of which school they choose, if it is an exceptional school, 
which is what I think Mr. Linzey has been saying, that we 
should be about the businesses of accelerating what is 
demonstrably excellent out there, because we got a lot of 
demand sitting in the country for it.
    Mr. Rokita. Thank you. Anyone else want to add to that?
    Ms. McGriff. Yes, I just wanted--may I jump in, just 
quickly?
    Mr. Rokita. Dr. McGriff, yep.
    Ms. McGriff. One, the pot of money is what exists, but 
there needs to be equitable funding for charter schools. 
Charter schools currently operate on about 80 percent of what 
traditional public schools get. It is very seldom that we get 
equal funding, so that is an issue.
    The second issue for me, I need to have young people who 
are not going to live in poverty. So it is not to me just a 
job. I know if I--and the CMOs that I work with in charter 
schools are wanting kids to graduate, go to college, because 
they reduce by 50 percent the likelihood that their own 
families will live in poverty. So we have a very high success 
bar for the schools that we work with.
    Mr. Rokita. Excellent. I don't think you are saying 
anything different than Mr. Linzey, in my--from what I heard.
    Mr. Rosskamm. Could I also comment--
    Mr. Rokita. Mr. Rosskamm, for the record.
    Mr. Rosskamm.--and try and make this real in some sense in 
my limited experience? The wonderful teachers and educators 
that I have the privilege of working with are getting 
spectacular results, the best results in our state. We have not 
just closed the achievement gap; we have reversed the 
achievement gap. And yet our teachers are receiving less than--
are working at a 20 percent discount from teachers in the 
district.
    We have things, needs for our children, extracurriculars, 
co-curriculars, programming we would love to do that we just 
cannot afford the additional staff because of inequitable 
funding that it would take to do those things. So the dollars 
are very real.
    Mr. Rokita. Thank you. Mr. Chairman, my time is expired, 
and I didn't even get to ask the questions that I intended to 
ask. Thank you.
    Chairman Kline. Thank you.
    Mr. Grijalva?
    Mr. Grijalva. Thank you, Mr. Chairman.
    Let me just follow up, Mr. Rosskamm, on the point that you 
just made, the 80/20 and the 20 percent disparity that occurs 
in public charter schools relative to public. With equitable 
funding, as you mentioned, would come--do you see with that 
equitable funding also coming the idea of public charter 
schools providing transportation, extracurricular, and you 
mentioned pay, salary issues? Is that what you mean by that?
    Mr. Rosskamm. Among the many things we would like to do for 
our children, yes.
    Mr. Grijalva. Well, my example in Arizona, which 
progressive as it is, does have some issues, the extra money 
being asked by the public charter schools for enhancement of 
the 80/20 split comes out of the budget of the is currently the 
regular public school system. Do you see that as an equitable 
way to do that?
    Mr. Rosskamm. Forgive me, but I actually see that as a 
false issue, at least in Ohio.
    Mr. Grijalva. Well, it is for--
    Mr. Rosskamm. Let me try and explain my--
    Mr. Grijalva. Okay, I have got another question.
    Mr. Rosskamm.--explain my response. The state--
    Mr. Grijalva. I have only got 5 minutes, so make it quick.
    Mr. Rosskamm. Yes, the accounting--and the money comes 
directly to us. But the way it is accounted for in our state, 
the district feels like they are losing money because on paper 
it is transferred through the district. It never goes there.
    Mr. Grijalva. Okay. For public charters, the financial 
situation for that public charter, is that proprietary 
information to the charter or to Breakthrough? Or is that 
public information that schools are required to provide?
    Mr. Rosskamm. We are public schools, and we are transparent 
and share that information.
    Mr. Grijalva. Mrs. Keegan, it is good to see you again.
    Mrs. Keegan. Good to see you, Congressman.
    Mr. Grijalva. Let me ask about authorizing, because our 
state has, what, about 605 charters, seven authorizers. 
California has 1,067, maybe more, 314 authorizers. And the 
question of closure came up and failing public charter schools, 
how you deal with that very tough situation. Based on that, do 
you think there has to be a cap on charter schools, number one? 
And number two, authorizers having this other governance, are 
they also--they have responsibility for evaluation, oversight? 
And shouldn't there be an enhanced requirement for that 
authorizing process? Because it is kind of subjective between 
states right now, as I see it.
    Mrs. Keegan. Mr. Chairman--
    Mr. Grijalva. And seven having that full responsibility for 
605 charters begs the question.
    Mrs. Keegan. Yes, Mr. Chairman, Congressman Grijalva, I 
appreciate the question. I think there does need to be a higher 
standard. And the state board for charter schools, which is the 
primary authorizer, as you know, in Arizona, does have a much 
higher standard and is a star member of NACSA, thank God, or I 
wouldn't be able to talk about them.
    So we are looking--as you know, Congressman, we are looking 
at about 40 schools in Arizona that probably will be closed 
because of those high standards, that is right.
    Mr. Grijalva. Quick follow up. Do you think, as we go 
through this--you know, the public charters and charters in 
general are founded on the premise of public--traditional 
public schools are failing. I mean, that is the genesis of the 
movement. Having said that, so that you believe there is a 
federal role in ensuring that states employ quality standards 
for charter schools or not?
    Mrs. Keegan. Mr. Chairman, Congressman Grijalva, just for 
the record, that was never my intention, and I helped write the 
law in 1994, not the premise that traditional public schools 
were failing, but the premise that all public schools were not 
good enough and that we needed more educators to be able to 
come directly into our education market and provide what they 
knew.
    So to that extent, I think we have done a great job in 
Arizona and nationwide, so I don't think we are at a point 
where we know exactly what needs to happen in terms of 
governance for all public schools, and I certainly think public 
charter schools are helping us learn.
    Mr. Grijalva. Okay, thank you. Ms. McGriff, my question is, 
who is accountable for at-risk students that you mentioned in 
your statement, kids with disabilities, English learners, in a 
charter school? Is it that individual school? Is it the 
authorizing body? Is it both? Who has the ultimate 
accountability if there is going to be--or is there a federal 
oversight role in terms of what the benchmarks for that 
accountability should be?
    Ms. McGriff. The first--the contract is with the 
authorizer, so the authorizer does establish the expectations 
for serving all kids and will terminate the contract if that is 
not done. There are requirements that you must meet from the 
federal government, and there are also requirements from the 
state. And so the oversight is--
    Mr. Grijalva. It doesn't contradict the notion of 
flexibility?
    Chairman Kline. The gentleman's time has expired.
    Mr. Thompson?
    Mr. Thompson. Thank you, Chairman, and thank you to all the 
witnesses here on this panel.
    I want to start with Mr. Rosskamm. In your testimony, you 
mentioned that a Web site for families is being unveiled today. 
Family engagement and education I think is incredibly 
important. Last July, I introduced the Family Engagement 
Education Act, and I wanted to just check and see, can you tell 
us a little more about that and how it is going to help or 
propose that it will help improve parent engagement in all 
schools?
    Mr. Rosskamm. Thank you, Congressman, for that question. We 
are kind of excited in Cleveland that just 2 weeks ago, we 
launched a new Web site as part of our Transformation Alliance, 
which is a public-private nonprofit body appointed by the mayor 
that includes district leaders, charter leaders, teachers, 
parents, nonprofits, and corporate representatives.
    And collectively, we are developing a process in Cleveland 
to evaluate the performance of all public schools in Cleveland, 
district and charter, and we are also receiving input from 
parents and families, and then we have put all that 
information, including state ratings, statements from the 
schools themselves, on a Web site that is available to parents 
so that parents can make better choices for their kids.
    Mr. Thompson. Very good. Dr. McGriff, I mean, I happen to 
believe that one of the most important aspects of charter 
schools are that they are laboratories of innovation within 
education. But I am not real sure how well we are doing of 
closing that loop of--because I hear all kinds of great things 
that occur in charter schools, but I think there are some 
bureaucracies at times, some lack of flexibility, of really 
fulfilling what a charter school should be for, of determining 
these innovations and rolling it out so that every child 
benefits from it.
    So in your testimony, though, you stated that one of the 
original tenets of the charter school movement was to ensure 
the transfer of knowledge and best practices between 
traditional public schools and the public charter schools. Can 
you tell us, how is the National Alliance assisting those 
efforts?
    Ms. McGriff. Well, the National--thank you--the National 
Alliance has been involved in a number of issues. One, first of 
all, is collecting best practices and the research and sharing 
it. We also sponsor the National Charter School Conference that 
has over 4,000 people who attend. You can get information on 
best practices from our Web site. There is a daily e-mail that 
goes out about charter innovation that--if you don't like 
daily, you can get weekly updates. There are toolkits. We are 
partnering with other organizations.
    We work very closely with each of the state associations to 
make sure that the work that our individual state associations 
are doing, we know about that nationally and we spread that. We 
work with states to write strong charter legislation or to 
improve weak charter legislation, because without good 
legislation, you are not going to be able to share and 
innovate.
    The work that you have done with the federal law also 
allows the most innovative of our CMOs to replicate. And there 
are a number of cities that are just begging these CMOs to come 
and to start their work.
    But I want to just say quickly that in replicating, each of 
those CMOs are innovating. Replication to them does not mean 
that I am going to take the first school that I opened and open 
it 20 times exactly the same way. I am constantly improving the 
model so that I can accelerate performance for students.
    Mr. Thompson. Very good. In the time I have left, I was 
just curious, for each of the panelists, or as far as we go 
until the light changes, anyways, we have that red light, you 
know, in your experiences, you know, what is the one innovation 
you have seen that has worked remarkably in a charter school, 
because you have had the flexibility to do that with, that you 
think if--that we should provide the flexibility to push it out 
into traditional public schools?
    Mrs. Keegan. Mr. Chairman, Congressman, I would say, 
teachers in charge. I think the best schools we see, it is 
teachers hiring teachers. The English Department is hiring the 
English Department. The profession owns that school, and I 
think it is a fabulous reminder that schooling is always about 
teaching.
    Mr. Linzey. I would like to just say more time, more 
quality time on task in the school day itself, in addition, 
outside the traditional school day. The charter schools I have 
worked with really make an emphasis on not wasting time, 
engaging kids in high-quality instruction, and then for the 
kids that are most needy, extending that instruction oftentimes 
to as many as 240 days a year to close that achievement gap, 
using Saturdays, summers, and things like that. Those are key 
processes. And a third thing I would say is using research-
based technology programs for intervention so kids can access 
24/7 to learn.
    Mr. Thompson. Okay. Thank you, Chairman.
    Chairman Kline. Mr. Scott?
    Mr. Scott. Thank you, Mr. Chairman.
    I tend to agree with my colleague from New York about 
charter schools. If you are having more money going into 
education, to siphon it off to charter schools and not to try 
to beef up the public schools, where 95 percent of the students 
are going to be going, I think diminishes the opportunities for 
those virtually all who are in public schools.
    I also agree with the--my understanding of the research is 
that there is essentially no difference between what happens in 
charter schools and public schools.
    You hear all the successes in charter schools. You don't 
hear the failures, where you tried. So I guess my question is, 
when you have eliminated all the regulations and give all the 
flexibility, what happens to the students that get relegated to 
a charter school that didn't work?
    Ms. McGriff. I can answer. I can give you an example here 
in Washington, D.C. A few months ago, the chartering authority 
identified a school to--we call it re-chartering. And instead 
of--because the school had over almost 700 kids in the 
building, there wasn't a notion of just close the school and 
put the kids on the street or, you know, fine the school, if 
you can. They contacted a high-performing CMO in the city, KIPP 
DC, and the board of that school engaged KIPP DC in the 
management of the school.
    Mr. Scott. If you don't have the performance standards and 
the other regulations, how do you determine that it is not 
performing?
    Mrs. Keegan. Mr. Chairman, Congressman, public charter 
schools have performance standards. They are bound to the same 
state academic program and assessment programs that every 
public school is, and--
    Mr. Scott. Well, what regulations do--are there not--if 
there is flexibility, what regulations do they not have to 
comply with?
    Mrs. Keegan. Well, they don't have to comply with the 
traditional hiring and firing practices. They don't comply 
with--that is probably the biggest one, that they are outside 
of those contracts.
    I would say, in the analysis of what money goes to public 
schools, public charter schools are public schools. When Title 
I is cut, it is cut for public charter schools, so all kids in 
public schools share that money.
    Mr. Scott. If you give the flexibility in hiring, you will 
have some much better decisions at some schools and some much 
worse decisions at others. People hire fraternity brothers and 
neighbors and relatives and all that. If you don't have the 
standards, what happens when you end up--what happens when you 
don't have the good performance?
    Mrs. Keegan. Go ahead.
    Ms. Whitehead-Bust. You are highlighting the importance of 
quality authorizing. So in Denver, as an example, we have 
closed 20 schools across governance types in the past 5 years. 
Ten of those 20 were charter schools, because they were not 
meeting our accountability expectations. While we are able to 
grant flexibilities on the inputs, hiring practices, 
curriculum, we grant no flexibility on the outcomes. We believe 
that all students deserve access to the highest-quality 
outcomes and hold all schools, regardless of governance types, 
to that same accountability metrics.
    Mr. Scott. Now you are talking about public charter 
schools, where the governance is public governing boards. Is 
that right?
    Ms. Whitehead-Bust. All of our Colorado charter schools are 
public charter schools.
    Mr. Scott. And how do you get on the governing board of the 
governing body of the charter schools?
    Ms. Whitehead-Bust. So the boards are self-created. 
Although they are reviewed for quality, it is one of the most 
important components of our quality framework, because we grant 
contracts to boards, not to school leaders. And so part of our 
robust rubric and metrics that we look at to grant charter 
schools looks deeply at the composition of that charter school, 
their policies, their practices, and their expertise.
    Mr. Scott. Are they subject to the same regulations as a 
traditional public school?
    Ms. Whitehead-Bust. They are an independent not-for-profit 
governing board, quite different than the publicly elected 
governing board that oversees Denver public school writ large.
    Mr. Scott. Do they get to impact the composition of the 
student body directly or indirectly? Do they have the 
opportunity to expel, for example?
    Ms. Whitehead-Bust. I am proud that in Denver we have led 
the nation having a unified school choice system that is 
actually managed by the same central team for 100 percent of 
our schools, charter or otherwise. So all entry and exit 
decisions related to students are made using the same criteria 
by a department that operates under the Denver public school 
system.
    Mr. Scott. Well, yes, but does the school decide who is 
expelled and who isn't expelled?
    Ms. Whitehead-Bust. They do not.
    Mr. Scott. Do they have any direct or indirect impact on 
admissions by location or transportation?
    Ms. Whitehead-Bust. They do not, because that system is 
managed as a unified school choice system. So I as a mom of 
three daughters get to fill out a lottery form. I happen to 
have one daughter in a charter school, one in an innovation 
school, and one in a direct-managed school.
    Chairman Kline. The gentleman's time has expired.
    Mr. Messer?
    Mr. Messer. Thank you, Mr. Chairman. Thank you to the 
panelists for being here on this very important issue.
    Mr. Chairman, I have a letter that I would like to submit 
for the record. It is from the Center for Education Reform 
dealing on this topic.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        
    Chairman Kline. Without objection.
    Mr. Messer. Thank you, Mr. Chairman.
    I just couldn't be more excited about the topic that we are 
here to discuss today in charter schools. It gets at the 
fundamental promise of America that every kid in America should 
have a chance to go to a great school.
    And the truth is, in America, we fall woefully short of 
that standard. Lots of kids go to great public schools, but no 
kid in America ought to have to go to a school where they won't 
have a chance to succeed. And we need to work in public policy 
at finding the right school for every child.
    I am a former president and CEO of an organization called 
School Choice Indiana. I believe strongly in charter schools. I 
believe in traditional public school choice. I believe in 
private school choice. I believe in home-schooling options for 
some kids, as well.
    You know, we have--the second paragraph of the Declaration 
of Independence promises all of us a God-given right to pursue 
happiness. And in modern America, that means we are all 
promised by God an opportunity to succeed. And that promise 
isn't real in today's America unless you have a quality 
education.
    And that is the stakes of what we are here to talk about 
today. It is interesting to hear on the other side of the aisle 
a sort of litany of the myths of these--of public schools and--
I mean, of charter schools, and so I would like to go through a 
few of them with you. In the interest of time, I am just going 
to answer the first one, but I hope you can all nod in 
agreement.
    I noticed that Dr. McGriff's organization is called the 
Public Charter School Organizations, and all charter schools in 
America are public schools, so many of the false choices that 
are presented here are a question between, what are we going to 
do with public schools and charter schools? Well, the reality 
is, they are all public schools, and they are schools that are 
serving kids.
    Secondly, there is a lot of conversations about, well, 
charter schools aren't accountable, the question of, you know, 
well, what happens when they don't work? In my experience--and 
I would ask anyone on the panel to comment on this--charter 
schools are far more accountable than public schools. I mean, 
there are far more incidences of charter schools that--some 
work incredibly, others have had less success. When they don't 
work, they close.
    There are school after school after school across the 
country in public schools, when if they are not meeting the 
standards for a child, frankly, the answer is to throw more 
money there and keep sending kids. Could anybody comment on the 
difference in accountability between charter schools and 
traditional public schools?
    Mrs. Keegan. Mr. Chairman, Congressman, thank you for the 
question. There is a direct accountability, in that if parents 
and students don't want to go to that school, they don't exist. 
So we haven't even spoken about that accountability. Of course 
they have the same requirements to meet standards, and they 
usually set them higher, and the governing boards or the 
authorizing boards that put them in business are setting those 
standards higher. But those schools have to convince families 
that they are worthy of their kids.
    So nobody is assigned to a public charter school. Somebody 
has to make a choice. That is direct accountability.
    Mr. Messer. And virtually every state I am aware of that 
has a robust charter school program, far more charter schools 
are closed than any public schools. Fair? Is that right?
    Ms. Whitehead-Bust. In Denver, we negotiate performance-
based contracts with all of our charter schools, and we have 
found in the past 2 years, when four charter schools have been 
closed, three of those four have surrendered their charter 
because they understand that they are not meeting the quality 
bar that we have mutually negotiated.
    Mr. Messer. Yes. In line with that, I mean, another topic 
you hear is, well, you know, the charter schools are performing 
well, but they are creaming the best kids out of the system. In 
my experience, in talking to education reformers who are 
inspired to be educators that change lives, frankly, they seek 
the toughest kids in the toughest populations. And my 
understanding is that the statistics are that charter schools, 
by and large, are serving a much more disadvantaged population 
than the public schools generally.
    Could a couple of you comment on that?
    Ms. McGriff. I would agree. And I tried to point out the 
demographics and the diversity of the student population in my 
opening remarks, so I won't repeat them, but the research 
clearly shows that the demographics in charter schools are much 
more diverse and poorer than traditional schools.
    Mrs. Keegan. Mr. Chairman, I would just add to that, that I 
would invite people who say that to walk the hot streets of 
Phoenix in the summer when the schools in the urban core who 
are going in to try to rescue these kids are trying to convince 
families that they will be worthy of their kids, day after day 
after day, trying to make that argument, because this is 
something families haven't seen before, and they have to 
convince families.
    There is nothing akin to creaming kids that goes on in 
these quality schools that are going into the urban core where 
the kids are least served.
    Mr. Messer. Oh, I went from yellow to red.
    Chairman Kline. You did, sir. The gentleman's time has 
expired.
    Mrs. Davis?
    Mrs. Davis. Thank you, Mr. Chairman, and thank you to all 
of for being here. And I am from San Diego. I have seen some 
extraordinary examples of charter schools, but I also question 
the extent to which they really influence other schools in the 
area. We know that, as you have said, I mean, a lot of charter 
schools close, so, you know, if you start saying, well, how 
many--you know, what is the percentage of ones that continue to 
go on and be exceptional and what are the percentage that 
actually, you know, don't do so well or are just not able to 
make the grade?
    The good thing is that perhaps they are no longer there, 
but the reality is that they leave a lot of students who might 
need a whole lot of remedial help during that period as they 
make a transition into what is often another public school in 
their community.
    So what are we doing to address those issues? Have we found 
a good way--do you think that actually there is any 
responsibility on the charter school or those who put it 
together or the school district to do the kind of intense 
remediation that is required to help those students who 
actually weren't getting what they should have during that 
period of time?
    Mr. Rosskamm. So, you know, we are extraordinarily proud, 
particularly some of our middle schools that take kids in the 
fifth or sixth grade that are far behind. We sweat blood, sweat 
and tears to get those kids caught up through incredibly 
dedicated teachers and getting the kids to buy into their own 
futures and their own learning.
    But I will admit that in Ohio, notwithstanding the 
influence of the national authorizers and the progress we are 
making, we don't have the authorizing standards we should have. 
That is changing, and that is a good thing, and it needs to 
continue to change.
    Mrs. Davis. Is there a federal role in that? Should there 
be?
    Mr. Rosskamm. That, as I understand it, is more of a state 
role and a role in terms of the responsibility and the 
oversight of the authorizers themselves. Our good authorizers 
maintain very high standards, and there is new legislation, 
state legislation, that will prevent authorizers with a bad 
track record from opening more schools.
    Mrs. Davis. And in many cases, those are local school 
boards, correct, in a number of cases who make some of the 
final decisions about the charter schools?
    Mr. Rosskamm. In Ohio, typically, they are not.
    Mrs. Davis. They are not. Oh, okay.
    Mr. Rosskamm. Typically not.
    Mrs. Davis. Okay. Yes, all right. Thank you. Mr. Rosskamm, 
I know in your testimony earlier you talked about the fact that 
your schools were able to get federal funding to replicate and 
to be a design, really, for the community, and that took some 
federal funding. Could you have moved with that replication 
without that federal funding? How critical was that?
    Mr. Rosskamm. It was absolutely critical and continues to 
be critical. There is a tremendous amount--you know, I already 
explained that our initial per student funding is less, and in 
the planning year and in the first couple years of a new 
school, we lose serious dollars. And if we did not have that 
support, we just simply could not move forward.
    And we lose those dollars in part because we are so 
concerned about getting the culture right that we start small, 
and then when we get it right, we continue to build. But as 
basic economics says, if you have fewer children in the seats, 
you are generating less revenue. Until we fill the building, we 
are not covering our overhead.
    Mrs. Davis. So would you suggest that there is some federal 
role there in terms of looking to those programs that 
actually--like Breakthrough, that actually have a really strong 
track record, but couldn't on their own replicate their 
programs?
    Mr. Rosskamm. I think the best return on investment that we 
can have is to take something that is working. After all the 
innovation, we have some winners, we have some losers, but once 
we have identified things that are working, it is a fabulous 
return on investment to replicate what is working.
    Mrs. Davis. Thank you. Ms. McGriff, could you just speak to 
the idea of the Department of Education is updating guidance to 
allow charter schools to use weighted lotteries? And is that 
something that you think is a good idea? How would you see that 
play out? Because we do know that certainly charters go out and 
do a lot of recruiting, but on the other hand, there are some 
particular needs that charters have to develop a diverse body 
of students, and that is important.
    Ms. McGriff. This is one of my favorite questions and 
favorite things, and I am so happy that the federal government 
has decided that schools like Denver School of Science and 
Technology, that was designed to have a student body that is 
socially and racially integrated and a focus on STEM and 
college can now get funds from the federal government to 
support their work.
    Mrs. Davis. Would you all agree with that?
    Ms. Whitehead-Bust. We second that appreciation.
    [Laughter.]
    Mrs. Davis. The rest of you, as well? Do you use that? And, 
I mean, is it an issue for you?
    Mr. Rosskamm. Absolutely.
    Mrs. Davis. Okay. Thank you.
    Chairman Kline. The gentlelady's time has expired. All time 
has expired.
    I want to thank the witnesses and yield some time to Mr. 
Scott for any closing remarks that he may have.
    Mr. Scott. Well, only to say that a lot of this can be done 
on the traditional setting. When you have a lottery and decide 
who can get a good education and who can't, that raises 
additional questions. Of course, if you get in one of these 
good schools, you are a lot better off. But overall, what we 
have found is that charter schools have not done better. A lot 
of them fail. And students are stuck in those, as well as some 
of the good schools.
    So we need to improve all the schools, and I think that 
sentiment has been made. I think we need to do everything we 
can to get there. Thank you, Mr. Chairman.
    Chairman Kline. As is so often the case, the gentleman who 
is sitting here and I disagree on some things, but on one thing 
I think we all agree, that we need to do better for our kids on 
the whole. And I happen to think that the advances made in 
charter schools, going way back to my home state, and now have 
been really, really significant and have helped lift all those 
boats.
    So, again, I want to thank all the witnesses. Excellent 
testimony. Thanks for engaging with us. There being no further 
business, we are adjourned.
    [Questions submitted or the record and their responses 
follow:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    [Whereupon, at 12:31 p.m., the committee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
